<html>
<title> - AVIATION SAFETY: OVERSIGHT OF FAA SAFETY INITIATIVES</title>
<body><pre>[Senate Hearing 111-518]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-518
 
                           AVIATION SAFETY: 
                  OVERSIGHT OF FAA SAFETY INITIATIVES 

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-919 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           GEORGE S. LeMIEUX, Florida
FRANK R. LAUTENBERG, New Jersey      JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2009................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Rockefeller.................................    13
    Prepared statement...........................................     9
Statement of Senator DeMint......................................    15
Statement of Senator Johanns.....................................    16
Statement of Senator Begich......................................    19
Statement of Senator Hutchison...................................    23
Statement of Senator Klobuchar...................................    24
Statement of Senator Thune.......................................    27
Statement of Senator Lautenberg..................................    36

                               Witnesses

Hon. Randolph Babbitt, Administrator, Federal Aviation 
  Administration.................................................     3
    Prepared statement...........................................     5

                                Appendix

Response to written questions submitted to Hon. Randolph Babbitt 
  by:
    Hon. John D. Rockefeller IV..................................    41
    Hon. Byron L. Dorgan.........................................    41
    Hon. Mark Begich.............................................    42
    Hon. Bill Nelson.............................................    43
    Hon. Maria Cantwell..........................................    43
    Hon. Claire McCaskill........................................    47


                           AVIATION SAFETY: 
                  OVERSIGHT OF FAA SAFETY INITIATIVES

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We're going to call the hearing to order. 
This is a hearing of the Commerce Committee, Subcommittee on 
Aviation. We welcome today the Honorable Randy Babbitt, the 
Administrator for the Federal Aviation Administration.
    We have held a number of hearings recently on the issue, 
particularly of safety and fatigue and related matters. And 
this hearing is a hearing to discuss a wide range of issues 
with the Administrator. Mr. Babbitt is going to be talking 
about what he has been involved in down at the FAA. He's 
involved in a number of actions.
    Shortly after he was sworn in as Administrator of the FAA 
he held a ``call to action'' meeting. And that ``call to 
action'' meeting brought in regional air carriers, pilots, 
pilot's unions and many others to discuss and improve safety 
and to reduce risk. The ``call to action'' initiatives have led 
the FAA to seek voluntary commitment from air carriers to 
implement certain flight operations quality assurances and 
aviation safety action programs and various things. We'll talk 
about that today.
    The FAA has made progress in a number of areas. And there 
are a number of areas where progress needs yet to be made. I 
held a hearing recently and we talked about the issue of 
fatigue and the fact that fatigue has been on the Most Wanted 
List for 19 years of the NTSB. And Mr. Babbitt and the FAA are 
working on that.
    I was disappointed at the last hearing to understand the 
time has slipped. We'll talk about that a bit with 
Administrator Babbitt as well because we are determined to try 
to drive this to a conclusion.
    It is the case that commercial aviation in this country 
delivers about 800 million people per year to their 
destinations. 30,000 flights operate every day in this country 
safely. We've had some tragic accidents, but few. And we also 
know how to prevent accidents in the future by addressing 
things that we understand are potential problems and cause 
potential risk.
    There are fatigue-related accidents that have occurred in 
the last 20 years. And one, in my judgment quite recently, that 
caused a good many fatalities. And it ought to require all of 
us to be urgent in our request to the FAA to make progress on 
dealing with these issues.
    Recent FAA equipment outages have caused some concern. And 
we will ask about those today as well because it caused major 
delays and chaos across the country in the air traffic system, 
one November 19 of this year and one in 2008. The bird strike 
issues, the Hudson River mid air collision. Those are both 
issues. Talking about the helicopter and fixed wing mid air 
collision. The bird strike with the landing in the Hudson River 
by a commercial airplane raises other issues I know for the 
NTSB and also for the FAA.
    Airworthiness directives violations, I won't talk much 
about that except to say that I'll ask questions about that as 
well. When commercial airlines fail to comply with 
airworthiness directives that's a very serious problem and I 
know the FAA has had to take some remedial action there.
    And then the issue of next generationers, or so called 
``NextGen'' changing the air traffic control system and 
modernizing that system is very important because that will 
improve safety. Improve safety. Save fuel. Do a lot of things.
    Most people nowadays understand that you can access a 
satellite somewhere above the Earth and get directions from 
that in order to move your car or to find a location of your 
friend with a cell phone. The problem is despite the fact that 
that technology is mature and ready, it is not available in 
this country, generally speaking, for the movement of 
commercial airplanes. It's unbelievable to me.
    We still are doing this ground-based radar navigation in 
the skies when, in fact, GPS navigation would be much, much 
safer. Then we would know exactly where an airplane is in the 
sky. Right now we know about where that fast traveling jet is.
    We know about where it is because the transponder put a 
blip on the screen. And at that nanosecond, that's where that 
plane was. And for the next seven or 8 seconds as the sweep 
goes on that console, that airplane is somewhere else.
    Well, we don't need to guess about where airplanes are in 
the sky. NextGen and the modernization of the air traffic 
control system to a GPS system is exactly what we need to do on 
an urgent basis. And that's something that Administrator 
Babbitt is very deeply involved in as well.
    All of these are very important issues. Administrator 
Babbitt has a lot on his plate. And we appreciate him being 
here today.
    I'm going to--Senator Johanns, did you want to say a word? 
I'm not going to have opening statements by and large. But we 
have a number of other members who will--Senators who will join 
us momentarily. But I'd be glad to call on Senator Johanns if 
you wish to make a comment.
    Senator Johanns. Mr. Chairman, that is a very kind offer. I 
concur with so many things that you said and wanted to indicate 
that. But I can only be here about 45 more minutes.
    So maybe it's best that I pass on the opportunity to make 
an opening statement. If I have anything we'll submit it for 
the record. And we can proceed to the first witness.
    Senator Dorgan. Well, Senator Johanns, thank you. And 
thanks for your very active participation on all of these 
hearings on the issue of aviation and air safety.
    Mr. Babbitt, you have only recently, that is, in the recent 
months taken the reins of a very large agency. And we 
appreciate that. We want to hear your comments today and then 
open it for questions.
    As I've indicated, we have a number of other Senators who 
will be joining us shortly, but you may proceed. Your entire 
statement will be a part of the permanent record, and you may 
summarize.

      STATEMENT OF HON. RANDOLPH BABBITT, ADMINISTRATOR, 
                FEDERAL AVIATION ADMINISTRATION

    Mr. Babbitt. Well, thank you very much, Chairman Dorgan. 
Members of the Subcommittee, thank you very much for inviting 
me here to testify on behalf of the Federal Aviation 
Administration to discuss the FAA's ongoing safety initiatives. 
Safety is, of course, the most important mission of the agency 
and the FAA professionals take this mission and their role in 
it very seriously.
    At the onset of this hearing, I'd like to take a moment to 
acknowledge a group of family members that are attending this 
hearing this morning representing the family members of 
passengers who died earlier this year in the Colgan accident. 
Any aviation fatality is taken very seriously by the FAA and of 
course, by me personally. And while I can only imagine the 
grief and the painful process that they're going through to 
come to terms with their loss, we're very motivated to improve 
aviation safety so that other families could be spared their 
tragic experience.
    I've met with the family members on more than one occasion, 
personally. And I will do so again later today with Secretary 
LaHood. My Associate Administrator for Safety, Peggy Gilligan 
and her Deputy, John Hickey, have also met with them on a 
number of occasions. And we remain in close touch with them to 
ensure that they know what we're doing in the key areas about 
which they've expressed concern.
    One of those areas is whether all pilots flying under Part 
121 regulations should be required to have an air transport 
pilot certificate. The current regulations permit a first 
officer today to fly under Part 121 with a commercial 
certificate. The ATP certificate requires, among other things, 
that a pilot have at least 1,500 hours flying experience.
    But before the issue of an ATP requirement was raised by 
Members of Congress and these families, I had already asked my 
safety organization to start putting together an advanced 
notice of proposed rulemaking to consider whether a new rating 
or endorsement could be established that would require more 
than what is currently required for a commercial certificate, 
but would focus again, more on the actual elements required 
rather than the 1,500 hours required to maintain or to obtain 
an ATP. And instead focus more on discreet training and the 
quality of that training to achieve the rating.
    I am concerned that simply raising the quantity of hours 
required without addressing the quality and the nature of the 
time and the pilot experience imparted during training may not 
ensure the improved proficiency that we all want. And I'd like 
to identify areas where an individual pilot receives and 
successfully completes training to obtain professional, 
operational experience in such areas as multi-crew operations, 
icing environments, and high altitude operations, just to name 
a few. This option is more targeted than simply increasing the 
total number of hours required which, by the way, assumes that 
once that number is achieved that it would have resulted in a 
comprehensive set of skills. That may not be the case.
    Another area that has been the subject of much discussion 
is pilot fatigue. You mentioned this has been an issue for 19 
years, and I have personally championed the issue of pilot 
fatigue for every one of those 19 years.
    I've been deeply involved with this. And not long after I 
became the Administrator, I had the FAA charter an Aviation 
Rulemaking Committee, an ARC, to make a recommendation on this 
issue. The ARC began meeting in July and presented their 
recommendations to me in September.
    While consensus was not reached on all of the issues, we 
were provided a very good framework to consider many of the 
issues that contribute to pilot fatigue. At the time the ARC 
was chartered, I committed to an extremely aggressive time 
schedule for the publishing of a proposed new rulemaking. It 
turns out that may have been a little too aggressive.
    I've been briefed numerous times on the areas that need 
further analysis for this subject, and the analysis remains 
underway. And as frustrating as it is for me that we will not 
complete the analysis by our aggressive year end schedule. I've 
told the team working on this rule to take the time to make 
certain we do this rule right. We have one opportunity. And I 
want it completed properly. But I promise you it will be 
completed.
    And, finally, I want to mention the incredible wealth of 
information that we've received from our ``call to action'' 
held earlier this year. History has shown us that we are able 
to implement much better safety improvements and far more 
quickly and more effectively when we work together on the 
problems and the solutions. I'm a firm believer in 
communication. Build a consensus. But as I've said from the 
beginning where consensus can't be reached, it's my job to make 
the call. And I will.
    We'll be issuing a report later this year to update 
everyone on the information we've received, the recommendations 
that were made, and how we're moving forward. And I'm confident 
from this that we have built a good foundation from which to 
issue guidance and possible further rulemaking.
    So, Mr. Chairman, that concludes my remarks. I'd be 
certainly willing to answer any questions that you and the 
Committee members might have.
    [The prepared statement of Mr. Babbitt follows:]

      Prepared Statement of Hon. Randolph Babbitt, Administrator, 
                    Federal Aviation Administration
    Chairman Dorgan, Ranking Member DeMint, members of the 
Subcommittee:
    Thank you for inviting me here today to discuss the Federal 
Aviation Administration's (FAA's) safety programs and ongoing 
initiatives, As you know, shortly after I was confirmed as 
Administrator, Secretary LaHood and I initiated a Call to Action on 
airline safety and pilot training. We made this Call to Action to 
encourage the aviation industry in this country to come together to 
share their best practices across the board and implement actions we 
know can improve safety. History has shown that we are able to 
implement better safety improvements far more quickly and effectively 
when we work together on problems and their solutions. We have received 
a wealth of information from the Call to Action, and, as a result of 
this information and our previous efforts, we are involved in a number 
of projects to use that information to make the industry and traveling 
public safer.
    To start, we had several short-term actions that we wanted to 
achieve in June and July of this year. These included:

  Flight and Duty Time Rulemaking: As a result of the Call to Action, 
    FAA made the creation of a new flight and rest rule based on 
    fatigue science a high priority, with an aggressive timeline. FAA 
    chartered an aviation rulemaking committee (ARC), which began 
    meeting in July 2009. The ARC, which consisted of representatives 
    from FAA, industry, and labor organizations, was charged with 
    producing recommendations for a science-based approach to fatigue 
    management by September 1, 2009. I am pleased to report to you that 
    the ARC met its charge and that we are currently reviewing its 
    recommendations. Understandably, this is an extremely sensitive and 
    complex area and, given the short time-frame the ARC was given, 
    consensus was not reached on all of the issues they were asked to 
    consider. At the time the Call to Action was announced, I said 
    that, as Administrator, I would work with the aviation community to 
    reach consensus, and where we could not I would be willing to make 
    the tough decisions. I fully intend to live up to that promise. 
    There is some more analysis that is underway and I am committed to 
    getting this done right--and we will get it done. As frustrating as 
    it is for me that we will not complete this complex analysis by our 
    aggressive year-end schedule, I have told the team working on this 
    rule to take the time required to make sure we have done all that 
    is necessary to support what we ultimately propose. With this in 
    mind, we will continue to push to get our proposed rule on the 
    street as soon as possible.

  Focused Inspection Initiative: Recognizing the urgency of proposals 
    in the Call to Action, FAA required its principal operations 
    inspectors for Part 121 carriers to conduct a focused program 
    review of air carrier flight crewmember training, qualification, 
    and management practices.

  The focused inspection initiative had two parts. The first part of 
    the initiative required FAA inspectors to meet with the carrier's 
    director of operations, director of safety, and company officials 
    responsible for flight crewmember training and qualification 
    programs. The purpose of these meetings was to determine the 
    carrier's ability to identify, track, and manage low-time flight 
    crewmembers and those who have failed evaluation events or 
    demonstrated a repetitive need for additional training. Inspectors 
    also looked at whether the carrier adopted the suggestions in 
    Safety Alert for Operators (SAFO) 06015 to voluntarily implement 
    remedial training for pilots with persistent performance 
    deficiencies. The meetings were to occur as soon as possible, but 
    no later than July 15, 2009. I am pleased to report that all of 
    these reviews were completed.

  As a result of these meetings, our inspectors found that about two-
    thirds of the carriers operating under the traditional regulatory 
    requirements for pilot training and checking (i.e., carriers that 
    do not participate in an Advanced Qualification Program) had 
    systems in place to identify and manage low-time flight crewmembers 
    and those with persistent performance problems. We strongly 
    encouraged carriers without such systems to establish them. For 
    those who will not commit to implementing these systems, we will 
    increase oversight to ensure their training and qualification 
    programs meet regulatory requirements.

  The second part of the initiative has also been completed. Inspectors 
    conducted additional inspections to revalidate that the carrier's 
    training and qualification programs meet regulatory standards in 
    accordance with FAA guidance materials. Among other items, 
    inspectors confirmed that these programs:

    <bullet> Review the entire performance history of any pilot in 
            question;

    <bullet> Provide remedial training as necessary; and

    <bullet> Provide additional oversight by the certificate holder to 
            ensure that performance deficiencies are effectively 
            addressed and corrected.

  Training Program Review Guidance: Using results from initial elements 
    of the focused inspection initiative, FAA will provide guidance 
    material on conducting a comprehensive training program review. 
    This guidance will describe the training program review in the 
    context of a safety management system and its role in a corporate 
    safety culture.

  Although our original goal (as indicated in the Action Plan) was to 
    develop this document by July 31, we postponed development of the 
    Training Program Review Guidance for two reasons. First, the Action 
    Plan indicates that we will use the results of FAA's focused 
    inspection initiative in developing the material. Although FAA 
    inspectors completed Part I by July 15, Part II (which calls for a 
    more in-depth review of training) was not completed until this 
    fall. Second, we found that the initial July time-frame would not 
    allow us to benefit from suggestions and ideas developed in the 
    series of Call to Action safety forums held around the country in 
    July and August.

  As noted, FAA inspectors have now completed the second part of the 
    focused inspection initiative. We are currently analyzing this 
    information, along with ideas gathered from the regional safety 
    forums. We expect to complete our data evaluation by December 31. 
    We will then develop guidance documents, including both a Notice to 
    Inspectors and a SAFO. Our goal is to have both documents ready for 
    internal coordination by the end of February.

  Obtain Air Carriers' Commitment to Most Effective Practices: To 
    solidify oral commitments made at the Call to Action, I sent a 
    letter to all Part 121 operators and their unions and requested 
    written commitments to adhere to the highest professional 
    standards, with specific commitments on the following key topics:

    <bullet> Pilot Records: While Congress is working to amend the 
            Pilot Records Improvement Act of 1996 and the FAA amends 
            Advisory Circular 120-68D, I asked that air carriers 
            immediately implement a policy of asking pilot applicants 
            for voluntary disclosure of FAA records, including notices 
            of disapproval for evaluation events.

    <bullet> FOQA and ASAP: I asked that air carriers who have not done 
            so, establish flight operations quality assurance (FOQA) 
            and Aviation Safety Action Program (ASAP) programs and 
            develop data analysis processes to ensure effective use of 
            this information.

  I can tell you that the responses indicated that carriers have 
    overwhelmingly shown a willingness to make the commitments I 
    requested. The responses we received cover 99 percent of the 
    aircraft operating under a Part 121 certificate, so I am pleased to 
    have gotten such a comprehensive commitment.

  Labor Organizations: I asked labor organizations for their commitment 
    in the following areas:

    <bullet> Establish and support professional standards and ethics 
            committees to develop peer audit and review procedures, and 
            to elevate ethics and professional standards.

    <bullet> Establish and publish a code of ethics that includes 
            expectations for professional behavior, standards of 
            conduct for professional appearance, and overall fitness to 
            fly.

    <bullet> Support periodic safety risk management meetings between 
            FAA and mainline and regional carriers to promote the most 
            effective practices, including periodic analysis of FOQA 
            and ASAP data with an emphasis on identifying enhancements 
            to the training program.

  I contacted seven labor organizations, all of which responded 
    positively and each of which is tracking their individual efforts 
    in accordance with their organizational structure. FAA's authority 
    does not extend to compelling the actions of labor organizations, 
    but we are tracking their efforts and will describe them in the 
    report issued at the end of the year, as discussed below.

  Mentoring: To address issues in the professional standards and flight 
    discipline area, FAA developed and sought industry comments on the 
    prospect of creating a range of mentoring programs. There is no 
    question in my mind that this is a critical area. I am very much in 
    favor of mentoring, but there is no question that it is also one of 
    the most challenging concepts to address. We found this to be true 
    during the discussions held at Call to Action safety forums around 
    the country. Still, these discussions have produced some 
    interesting and promising ideas. For example:

    <bullet> Establishing Joint Strategic Councils within a ``family'' 
            of carriers (mainline and regional partner(s)). This 
            approach could lead to individual as well as corporate 
            mentoring relationships.

    <bullet> Using Professional Standards Committee Safety Conferences 
            to provide opportunities for two-way mentoring--a very good 
            reminder that good ideas are not unique to larger mainline 
            carriers.

    <bullet> Exploring mentoring possibilities between air carriers and 
            university aviation programs.

  We encouraged carriers to meet with their partner airlines to discuss 
    what mentoring options were best suited to their operations and 
    seniority structure. I understand that most major carriers have 
    done this and I am appreciative of their efforts. While there are 
    challenges associated with making mentoring a routine part of 
    training standards, I am committed to keep working in this area for 
    the long term.

  Regional Safety Forums: Beginning in July, FAA conducted a series of 
    regional safety forums to discuss the Call to Action initiatives, 
    listen to stakeholder comments, and seek ideas for and commitments 
    to additional actions in the areas in which FAA is already taking 
    specific action. It was very important that the Call to Action 
    effort be a comprehensive outreach for information and input and 
    not from only those individuals or entities that could make it to 
    Washington in June. By the end of August, FAA held 12 well-attended 
    forums in the following locations:

 July 21                                                                      Washington, D.C.
July 30                                                                   Dallas/Fort Worth
July 30                                                                                    Chicago
August 4                                                                            Seattle
August 6                                                               Minneapolis/St. Paul
August 6                                                                            Atlanta
August 6                                                                          Anchorage
August 20                                                             Miami/Fort Lauderdale
August 20                                                                            Denver
August 21                                                                         St. Louis
August 27                                                                         Las Vegas
August 27                                                                            Boston

    The Call to Action also included several intermediate term actions, 
intended for completion in the August-December 2009 timeframe. These 
include:

  Crew Training Requirements: At the time we initiated the Call to 
    Action, the FAA already had an NPRM open for comment, intended to 
    enhance traditional training programs for crewmembers and 
    dispatchers by requiring the use of flight simulation training 
    devices for flight crewmembers, and including additional training 
    requirements in areas critical to safety. The public comment period 
    closed on August 10, with over 3,000 pages of comments. After 
    careful review of these comments, FAA will issue a supplementary 
    proposal to incorporate some of the views provided and offer the 
    public another opportunity for input on the revised document. The 
    final rule will be consistent with the philosophy of enhancing the 
    quality and effectiveness of training rather than focusing on 
    traditional quantitative measures such as total flight time.

  One of the things that the Call to Action has also shone a light on 
    is the issue of varying pilot experience. We do not believe that 
    simply raising quantity--the total number of hours of flying time 
    or experience--without regard to the quality and nature of that 
    time and experience--is an appropriate method by which to improve a 
    pilot's proficiency in commercial operations. We are also 
    considering other options. For example, a newly-certificated 
    commercial pilot with the minimum number of hours might be limited 
    to certain activities until he or she could accumulate the type of 
    experience deemed potentially necessary to serve as a first officer 
    for an air carrier. We are looking at ways to enhance the existing 
    process for pilot certification to identify discrete areas where an 
    individual pilot receives and successfully completes training, thus 
    establishing operational experience in areas such as the multi-
    pilot environment, exposure to icing, high altitude operations and 
    other areas common to commercial air carrier operations. We view 
    this option as being more targeted than merely increasing the 
    number of total flight hours required because it will be obvious to 
    the carrier what skills an individual pilot has, rather than 
    relying on an assumption that a certain number of hours has 
    resulted in a comprehensive set of skills.

  Guidance to Inspectors on Safety Oversight: Consistent with the 
    report of the Independent Review Team on Managing Risks in Civil 
    Aviation, on which I served, FAA's Aviation Safety organization 
    included scenario-based training in safety oversight as part of the 
    August All-Managers Conference. This training was intended to 
    address issues raised in the report, including:

    <bullet> Management of varying regulatory interpretation styles 
            within the inspection work force;

    <bullet> Methods for harmonizing extremes in regulatory 
            application; and,

    <bullet> Methods for optimizing the regulatory effectiveness and 
            coherence across a diverse team of inspectors.

  Final Report: By December 31, FAA will finalize a report summarizing 
    our findings and recommending additional action items based on the 
    Call to Action meeting, regional safety forums, results of the 
    focused inspection initiative, and other actions. The report will 
    include performance metrics for auditing and assessing progress.

    While these are the steps we have accomplished and the upcoming 
actions we will be taking, I want to point out the biggest factor 
affecting safety: professionalism in the workplace. Safety begins at 
the top, but whether one has a wrench in his or her hand, sits at a 
yoke or carries a clipboard, wears a headset or works in the galley, 
safety is everyone's responsibility. In spite of this, we have not seen 
the required level of professionalism consistently from the aviation 
industry across the board. Although professionalism prevails in the 
vast majority of the aviation work force, it is not uniform throughout 
the industry. The standards are the same, the training is the same, but 
the mentality is not the same, and this is what we have to change.
    One aspect of professionalism that needs further review is the 
professional responsibility of pilots to report for duty ready to fly. 
Recent incidents have reinforced this concern. Of special interest is 
the challenge for those who commute from one city to their work 
domicile in another. The effect commuting has on fatigue for crew 
members requires further analysis. I know from last week's hearing that 
this is an issue of great interest to this Subcommittee. But I want to 
emphasize as we consider options on fatigue, reporting to work fit for 
duty is far more complex than drawing a circle around a hub and stating 
that the pilot must live within that area. This is where 
professionalism--taking responsibility for showing up fit for duty--has 
to govern.
    Please understand, I recognize the interest in and concern about 
commuting. But given the complexities and vested interests inherent in 
this issue, the ARC did not reach a consensus recommendation. 
Consequently in the interest of not delaying issuing the broader 
fatigue proposal, we will request additional comments and 
recommendations to consider whether added restrictions in this area 
would further enhance safety.
    It is essential that those who have captured the essence of the 
professionalism have opportunities in and out of the cockpit to pass it 
on. Experience is a wonderful teacher, and there is no substitute for 
learning at the hands of someone who has already been there. The 
inexperienced people in the system need to meet the ones who have been 
around the block. They need to seek them out and mine whatever golden 
nuggets they have. That is one of the main reasons I think we need to 
see more mentoring throughout the industry.
    I also think that we need to see greater use of the tools at hand 
like safety management systems across the board. It is often difficult 
to spot a trend with a slope that has only three data points on it. 
Safety management systems can help us plot more points and produce 
better information to help us make the right safety decisions.
    When people know that they can raise their hand and say, ``Hey, I 
think there's a problem here,'' it is then, and only then, that we are 
able to move forward in safety. If you have a situation where someone 
raises a hand and then is punished for doing so, all you have done is 
encourage silence. When you make silence the rule, when sweeping issues 
under the rug becomes the status quo, you have a recipe for disaster.
    Unfortunately, we also need to recognize a basic truth here: we 
cannot regulate professionalism. No matter how many rules, regulations, 
advisories, mandatory training sessions, voluntary training sessions, 
it still comes down to the individual--the individual pilot, mechanic, 
technician, flight attendant or controller.
    In conclusion, I want to say that while the Call to Action 
initiatives have been a major focus for me since joining the safety 
professionals at the FAA, their impressive work has been ongoing for 
years. Their work has resulted in eliminating fuel tank flammability, 
virtually eliminating commercial icing accidents, and drastically 
reducing the number of general aviation accidents in the state of 
Alaska, among many other things. Safety is at the core of FAA's mission 
and we will always strive to make a safe system safer. Mr. Chairman, 
Senator DeMint, members of the Subcommittee, this concludes my prepared 
remarks. I would be happy to answer any questions that you might have.

    Senator Dorgan. Mr. Babbitt, thank you very much. Senator 
Rockefeller, you have just arrived. And did you want to make 
any opening comments or would you like to begin questioning? 
I'd be happy to defer.
    The Chairman. I'll put my statement in the record.
    [The information referred to follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    In discussions about aviation safety, it is often cited that the 
United States has the safest airline industry in the world. That fact 
is statistically correct--numbers do not lie. But sometimes they do not 
tell the whole truth. And, this fact offers no comfort to families of 
the victims of airline accidents.
    Numbers alone do not reassure me that our Nation's aviation system 
is as safe as it could be.
    Nor, do I believe, after the series of safety lapses we have seen 
over the last year, that statistics alone will reassure the millions of 
Americans who take to the skies everyday.
    During this holiday season millions will fly far and wide to spend 
time with family and friends. The last thing they should be worrying 
about is their own safety.
    Over the last several months, the issue of pilot training and 
fatigue has dominated the safety discussion--and rightly so. They are 
important issues that need the FAA's and industry's immediate 
attention.
    I believe that revisions to flight time and duty limitations are 
long overdue. There is simply no excuse for past failures in this area. 
Frankly, it is embarrassing, and I expect the FAA to make progress on 
it in the near future.
    Mr. Babbitt, when we first met, I told you that you have one of the 
hardest jobs in Washington. After your first year on the job, I believe 
you would agree with me.
    I know that you are committed to continuously improving the safety 
of our Nation's aviation system, and, just as importantly, changing the 
way the FAA addresses safety issues. I am pleased that under your 
leadership the FAA is being proactive, not reactive, when it comes to 
safety.
    As you know, safety issues cannot be addressed in isolation. They 
are woven into every aspect of the agency's mission from aircraft 
certification, to air traffic control, and airport development.
    Just as the agency is rightly focused on pilot issues, it must also 
remain as vigilant on other safety priorities--the oversight of 
airlines, reducing runway incursions, and air traffic controller 
staffing issues. I am pleased that the FAA is making progress in each 
of these areas.
    But, as I have said, having the safest system in the world does not 
mean it is safe enough.
    We are reminded far too often about the fragility of our aviation 
system--a system dependent on antiquated technology and human factors 
we still don't fully understood.
    Over the last several years, modernizing our Nation's air traffic 
control system has been a priority for me and the Members of the 
Committee.
    The benefits of modernization are often described in terms of 
economic efficiency. There is no question that is true, but the 
strongest case for modernization is that it will make our system safer.
    The Next Generation Air Traffic Control System has clear 
technological benefits including more precise flight paths and greater 
situational awareness for pilots.
    That is why it is even more critical that the Senate move on a FAA 
Reauthorization bill early next year.
    Safety is clearly the top priority for everyone in aviation. I know 
the FAA and the industry take the proper action 99 percent of the time 
when it comes to safety. But, that is not good enough. As we know all 
too well, the margins for error in aviation are far too small. It is 
that 1 percent that can lead to tragedy.
    At the moment, our aviation system is fragile. We all need to work 
together to make sure we maintain it, strengthen it, and sustain it as 
the world's finest.
    I look forward to working with you to achieve that goal.

    The Chairman. I want to say to Randy Babbitt that I'm 
feeling very guilty because you called me a couple times. I've 
been lost in something called the deepest weeds bog of 
healthcare, nonstop. And I want to apologize to you because I 
think you're doing a terrific job.
    Mr. Babbitt. Thank you, Senator.
    The Chairman. And so will you accept my apology?
    Mr. Babbitt. Absolutely.
    The Chairman. Thank you.
    Mr. Babbitt. Yes, sir.
    The Chairman. OK.
    Mr. Babbitt. Absolutely.
    The Chairman. And Mr. Chairman, I'll defer to you on 
questions. And I'll take my place in the regular order.
    Senator Dorgan. Senator Rockefeller, thank you very much.
    Let me begin asking about the issue of fatigue since you 
commented on it. You formed an ARC and they met July to 
September. And you now have some recommendations, but further 
analysis needs to be done, you say.
    Both the recommendations and further analysis that are 
underway, will they relate in any way to the issue of commuting 
or is commuting outside of the range of vision on this 
particular rulemaking? And if so, why?
    Mr. Babbitt. Yes, sir. The ARC addressed this within their 
comments for a proposed rule. They were briefed on the issue. 
The parties involved in that ARC did not come up with any 
conclusions. They instead said that commuting was an issue they 
felt was outside of the boundaries of what they were looking at 
in terms of a fatigue rule.
    When we issue the NPRM, I do plan to put observations about 
commuting into the proposed rule which will be available for 
comment. I think everybody appreciates, you know, some of the 
issues here. And I think for the record and for your 
understanding, you should or perhaps I could explain a little 
bit.
    My focus here is on fatigue. And my focus is on making 
certain that when a pilot shows up and takes the responsibility 
to carry 2 passengers or 200 or 250 passengers, they accept 
that responsibility. They have an obligation to show up fit, 
both physically and psychologically to undertake the mission 
they've got.
    So, it's more of a concern to me that we ensure that they 
not show up fatigued, not the reason that they became fatigued. 
Again, I'm more concerned that they show up not fatigued. 
People can be fatigued for a lot of reasons--the 2 o'clock 
phone call that takes a child to the hospital; the decision to 
play an extra 18 holes of golf before work.
    But we're depending, we have for years, upon professional 
responsibility. And we have tried very hard. I've used, to the 
extent I have, the bully pulpit. I have pushed the 
professionalism issue with some degree of success.
    We have reminded people that not only does the pilot have a 
professional responsibility, the carrier also has a 
responsibility. It's a shared responsibility that they not put 
people to work who aren't fit to work. That I think some of the 
awareness and the bright light that we put on this issue 
recently has shown us some benefits.
    We had a very unfortunate incident not too long ago, an 
embarrassing incident in the profession where a pilot was 
observed by others in the crew to not be fit for flight and the 
pilot was removed. So the system does in fact work. We need to 
keep emphasizing it. And as I said, I expect observations 
regarding commuting to be in the NPRM which will be available 
for comment.
    Senator Dorgan. Mr. Babbitt, you made a comment. Let me 
comment on what you said at the start of your statement. There 
are a number of people who I see in the room who are family 
members of the victims of the Colgan air crash.
    And I'm convinced that when all the dust settles on all of 
this that their activities, relentless activities, on behalf of 
the memories of their loved ones, will end up saving lives. 
Because they are relentless in trying to make certain that 
nobody gets on an airplane in the future with a pilot and a co-
pilot that apparently haven't trained in the stick pusher or 
one of whom hasn't flown in icing. Both of whom have traveled a 
far part across the country in order to get to the duty 
station. Neither of whom have been in a motel room to rest for 
the evening following all-night flights. I mean, I'm convinced 
that their relentless push of us and of you is going to make a 
difference.
    And so with that as a precursor, it just seems to me that 
the notion of saying we expect everybody to be professional is 
not obviously just the answer. The question is if you now have 
a system in which fatigue clearly plays a significant role. And 
training plays a significant role. How do you fix that system 
in a way that at the end of the day leads you to believe that 
you have better trained crews in the cockpit, better rested 
crews in the cockpit? I mean, that's the key for me.
    But I have a lot of questions about--well let me just ask 
one more. Then I'll--questions about NextGen and so on we want 
to cover before you leave. But we--it seems to me you must look 
at the totality of all the issues facing these pilots and the 
crews of these commercial airliners.
    You said that you don't know whether--let me say it 
differently. You indicated that for you the question of an ATP 
certificate is not the number of hours that you have, that it's 
what kind of training have you had. But if that's a qualitative 
judgment, and it is, then how are you going to describe that in 
terms of what someone is going to hire out there? We had all 
these discussions a week or so ago about how many hours it 
would take to get on with an airliner 10 years ago and how many 
hours it takes nowadays to go find a job and a commute. Very, 
very different.
    So tell me how you would measure this qualitatively?
    Mr. Babbitt. Well, what we expect to explore in our advance 
notice would be an endorsement. We use this process today. For 
example, someone with a commercial pilot's license who would 
like to fly an aircraft capable of operating at very high 
altitudes, we have a number of airplanes today that can operate 
25,000 or 30,000 feet pressurized.
    A commercial license gives you absolutely no insight into 
that environment. So you have to obtain an endorsement and have 
some very specific and tailored training just to operate in 
that environment.
    Recognizing hypoxia.
    Recognizing what effects the thin air has on the wing.
    The engine performance.
    The narrowing of the flight envelope.
    The stall in the maximum speed become closer and closer in 
thin air.
    All of this is training for high altitude operations.
    I'm suggesting that as a first step that we take a 
commercial pilot and say, if you want to work for a 121 
operation, you need more experience. You need to demonstrate to 
us that you have had multi-crew training. You have operated it 
with cockpit resource management. You have had exposure to ice 
training. You have had exposure to high altitude operations, 
and jet engine operations. All of these things would be 
elements toward an endorsement.
    I would further say I'm not so convinced that the ATP that 
we have today gives us the elements that we need, as I have 
testified here and I've testified in the House.
    I actually was on the flight that landed behind Air 
Florida. Eastern Airlines, flight 1482 was the aircraft that 
landed behind the aircraft that took off. That airplane had 
qualified pilots, very well trained. Both of them had ATPs. The 
first officer had never seen an airplane deiced. Now that's 
wrong. That pilot was not trained for the mission.
    And what we're saying now is that we want to ensure that 
every pilot has seen every possible scenario that's going to be 
presented to them. The fact that they have 1,500 hours, or 
2,500 hours, doesn't give me the comfort that we've achieved 
that training. I'd much rather have somebody with 1,000 hours 
that had been exposed to simulated scenarios. We have the 
capability today with high fidelity simulations to expose 
pilots to every potential environment.
    Senator Dorgan. Mr. Babbitt, could a pilot be hired today 
and be in a cockpit today similar to the Air Florida flight 
that had not seen de-icing previously?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. And how is it after 30 years that nothing 
has changed?
    Mr. Babbitt. Well, that's a question that I've had 6 months 
to work on so far. But that's one of the reasons I----
    Senator Dorgan. But isn't that unbelievable to me? I mean, 
it's just unbelievable to me that, you know, a commercial 
license might give you the right to fly a Cessna 210 and use a 
pressurized aircraft and use a flashlight to see how much dry 
ice is on your wing at night. But that doesn't give you the 
capabilities, it seems to me, to get in the cockpit of a 
commercial airliner and fly 150 people around.
    Mr. Babbitt. You're absolutely correct. And I can use 
myself. I mean, I was hired with a commercial license. I didn't 
have any ATP.
    But I flew co-pilot for 10 years. And so I gained that 
experience. I was mentored. And I think we depended upon a 
system that took a significant amount of time.
    What we have seen more recently, in cases where you have 
rapid expansion in carriers, is that suddenly you've got 
somebody in the left seat with 3 years and somebody in the 
right seat with 1 year. And that's where the system begins to 
show its weakness.
    Senator Dorgan. Senator Rockefeller? And then I'll call on 
Senator Johanns.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, Mr. Chairman.
    Mr. Babbitt, you have this, your ``call to action.'' And 
your ``call to action'' is very important because it seeks 
again I'm getting a little bit of Senator Dorgan's idea of 
these things ought to happen as opposed to these things are 
going to happen. And in your ``call to action'' you're asking 
for voluntary, you know, commitments from air carriers to 
implement flight operations, quality assurance, aviation 
safety, and action of all of these things.
    So some of these voluntary commitments are also sought from 
labor unions to establish professional standards, peer audits, 
review procedures, etcetera. I want you to know that our FAA 
bill includes that all of these will be mandated. OK? So, it's 
not a question of discussion anymore.
    But I'm sort of interested in how you were doing on this 
because the airlines are in trouble, because big airlines, 
little airlines, general aviation. Everybody is in trouble. The 
word, voluntary, do the best you can becomes a way of not 
crushing them economically. On the other hand, when it comes to 
passenger safety, you can't worry about that.
    You know if Amtrak went broke because we were enforcing 
upon them safety standards or you know, any airline because 
we're enforcing on them standards which are in the public 
interest which kept passengers safe, we would happily do that 
because that's our job. That's our job. Their job is to try to 
make it in the bad economy. And that's very hard. But we can't 
shy away from our responsibilities.
    So how do you, sort of, size up your ``call to action?'' 
And how are your voluntary commitments being received?
    Mr. Babbitt. Right, sir. The ``Call to Action'' was fairly 
robust. It called for a number of things and I think we found 
one action item in particular to be pretty effective. And what 
I asked the carriers to do was to advise us of everyone who had 
any of these safety programs that are out there. But I also put 
them on notice that I intended to call them out. I told the 
carriers that they had by the end of September to advise me 
whether or not you had done this and that I would publish the 
list of those who hadn't. And we did.
    It is remarkable the increase in participation that we got 
between the end of September and the end of October. We had a 
good number that responded, and said, yes, we're doing this.
    But we had a good number who didn't and we put them up on 
our website. We let people know these are carriers that chose 
not to do what we asked.
    And I'm pleased to say that of the 98 carriers we've had 
positive responses from 80 who are now engaged in all of these 
programs. They either have them in force or because of the 
mechanics required, for example, the FOQA program requires some 
technology which they are adapting. We are monitoring those.
    We shouldn't consider some of those carriers that are very 
small. And we actually should excuse a few of them. For 
example, if you only have two airplanes, you know. FOQA doesn't 
do anything for you.
    The Chairman. Right.
    Mr. Babbitt. But I've been very happy the unions, by the 
way, responded 100 percent.
    The Chairman. Good. I just say as a matter of my own 
personal philosophy that it's a tricky balance. But in the end 
it isn't between when we're on really hard economic times.
    I mean, you know, there's a question here I have about 
people traveling on Christmas vacation. Well, in fact, they're 
going to be doing a lot less traveling this year. We know that. 
But that's because of bad economic conditions.
    But there are certain things involving public safety where 
you cannot compromise on safety. You just can't do it. We can't 
do it. You can't do it.
    And previous people might not have been as strong as you 
are. We can't let them do it for the sake of keeping harmony or 
something or open relationships. We have to bring the hammer 
down. Make sure the consumers come first. That's the philosophy 
of this Committee. Consumers come first.
    Mr. Babbitt. Yes, sir.
    The Chairman. That's the new philosophy of this Committee, 
but it is the philosophy.
    One quick follow-up on the NextGen which has been driving 
me crazy for a number of years that we can't get it done. And 
that we are still behind Mongolia with respect to, you know, 
GPS and all the rest of it. That's only because they're 
building their first system. But nevertheless it makes the 
point.
    And it's going to be great for air traffic controllers and 
for pilots because they'll be able to tell how far they are 
away from each other. People will be able to land more 
frequently because they'll have virtual vision. What will be 
the effect on passengers in terms of safety if we have a 
NextGen system in place?
    Mr. Babbitt. Well better spacing, clearly, and more 
reliable, up-to-date, information on the aircraft positioning. 
Senator Dorgan mentioned some of the pieces that will be there. 
I think there are a lot of ancillary benefits we talk about as 
well. Not only safety in the aircraft, but also safety in the 
environment, a lot less carbon emissions, and a lot less noise 
for environmental impact. All of those come into it.
    But the fact that the situational awareness of a pilot is 
much enhanced and the situational awareness for a controller is 
much enhanced, is going to be a huge benefit. I'm really 
pleased that we're beginning to see some pretty rapid 
acceleration of deployment.
    We now have initial operating capability in Louisville 
where we're actually using ADS-B. The controller can see all 
the ADS-B aircrafts just like he can see radar. We're actually 
on a trial basis now using ADS-B in the Gulf.
    What does that mean? 10,000 people a day move back and 
forth off of oil rigs. There are almost 4,000 oil rigs out 
there. We move 10,000 people a day on and off them in 
helicopters without radar.
    Well, now we can see those aircrafts. They can see each 
other. They can navigate better. These are all benefits to 
every one of those people on the helicopters in terms of the 
separation and their safety. So all in all, the benefits are 
enormous for all involved.
    The Chairman. Mr. Chairman, one final 30 second answer. Why 
don't we have that system in place now? Why have we been 
talking about it for so long? Why has everybody been willing to 
step up to the plate until they find out that it might cost 
them some more money?
    You know, the President gave a great speech at Oslo this 
morning. He talked about the responsibility of all countries to 
do all kinds of things. And you know, we don't--we can't get it 
done. What's your theory of that?
    Mr. Babbitt. Well, I think part of it is probably our own 
fault. I don't know that we ever really explained or made 
available the understanding of the savings that were available. 
We didn't make the business case, if you would, that you could 
save an enormous amount of money.
    I can make a very good business case today. I can show you 
that the commercial airlines in this country will save a 
billion gallons of fuel a year. At only two dollars-a-gallon, 
that's pretty easy to compute. That's two billion in savings.
    The system only costs six billion. Anybody in the business 
sense would say this is a great deal. I should have one of 
these. So we need to do a better job on the business case.
    I also think there is another side of it. There is a 
tipping point for equipage until some mass of people actually 
has the equipment, the airports don't benefit, and the traffic 
doesn't benefit from it. I've used the analogy of the HD, the 
cable operator, if you wanted me to buy the box. I'll buy the 
box when you have enough channels and you say well, I'll put 
enough channels on when enough of you buy the boxes.
    So, I think we've finally come to the point where we say, 
look, we need to do this. You need to put the channels on. We 
need to buy the boxes.
    The Chairman. Thank you.
    Senator Dorgan. Senator Rockefeller, thank you very much. 
As a courtesy, the Ranking Member of the Subcommittee, Senator 
DeMint, did not make a statement. Did you have something to say 
at the front of this?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Senator Dorgan, thank you. Thank you for 
your persistence on safety.
    Again, thank you and Senator Rockefeller as well as our 
Ranking Member. The thing I'm just listening for today is how 
do we push this over the hump and get this done?
    I know we've got legislation in place. But the fact is, no 
matter what we try to legislate we're not the experts. Some may 
be pilots, but certainly not to the degree we're talking about 
here and the need for the industry to try to come up with these 
standards working with you so that they fit with the 
legislation we're writing.
    I don't want a political solution to a safety issue. At the 
same time we don't want to wait decades longer to get safety 
standards from the industry. Just your perspective, 
Administrator Babbitt, and I do appreciate all you've done 
since you've come into office. What we're trying to do is just 
push this to the end. And the big part of it needs to come from 
your side, from the carrier side, from the pilot side.
    Mr. Babbitt. Well, I appreciate that very much. I pushed a 
lot of these. I actually have the benefit of probably being the 
loudest and most vocal advocate of one level of safety back in 
the 1990s. So I appreciate, you know, what some of these take.
    I also appreciate the concern about something being 
voluntary, but I also have learned what it takes to now create 
a regulation. And so what I have done is to ask people to do 
these things on a voluntary basis until we can get to the point 
of moving them into legislation.
    We're working with Congress. And I appreciate the help 
we're getting. Some of these, information, for example, if it 
were in our hands would be discoverable and therefore people 
would be reluctant to give it to us. Left in the hands of the 
carriers, it's not.
    We're working, you know, with all of the Committees in both 
Houses to find ways that we can immunize this information so 
that the people will continue to willingly give it.
    Senator DeMint. The key here is if you can become the best 
practice headquarters where you can pull these voluntary 
standards, these creative new ideas to make things safer and 
you create the critical mass. But as you said, they're not 
going to do that if it creates some form of liability or public 
exposure. So, maybe that's something we can do to make sure 
that anonymously or otherwise that these ideas are sent to you. 
And you can continue to give us those from the ground ideas of 
what we really need to do to make things safer.
    Mr. Babbitt. Well I would just add one point. We're here 
today forensically looking back at a very tragic accident.
    I want to find the data before the accident. I want to find 
ways to get the information to us so that we can predict the 
accident so we don't ever have hearings like this. Rather, you 
can be talking to me about budget issues or something, not 
about tragedies that happened.
    And information is going to take us through that gate.
    Senator DeMint. Right. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman.
    Let me, if I might, Mr. Babbitt, in the short time I have, 
focus on four really important things.
    I want to talk to you about this commuting issue.
    I want to talk to you about pilot experience and salaries 
for pilots.
    And then probably as important as all of those is 
equipment.
    Help me understand commuting. Let's say I'm a pilot. I live 
in San Diego. But the flight that I am going to fly originates 
in New York City. And I commute back and forth between San 
Diego and New York City.
    That flight from San Diego to New York City that I make 
every week to get on the flight that I would fly, how is that 
factored into safety regulations or is it? Is it just not 
counted?
    Mr. Babbitt. No, it currently is not counted. And 
commuting, while I don't think that the majority of pilots 
commute, it's difficult. Pilots in the traditional times would 
commute based on some short-term event.
    In other words, maybe a new piece of equipment was offered 
in another domicile. They would bid that domicile, but didn't 
want to move children out of school. So they would commute 
within their own system.
    But I think if you look at commuting now you're still going 
to find that the vast majority of it is limited to commuting on 
their own system. So, for example, Colgan had two bases. They 
had a base in Virginia and they had a base in New Jersey. So, 
if someone took an assignment up in Newark then they would 
commute on their own airline or, you know, there are a variety 
of ways to do that.
    Longer distance commuting is something a little different. 
But no, it does not count. And pilots, we have depended on 
professionalism.
    I commuted. I commuted myself for 5 years. I commuted to 
New York to fly Captain. It was available up there. It wasn't 
available here. I wanted to----
    Senator Johanns. You know I'm not questioning anybody's 
professionalism. I understand the issue of living away from 
home. All of us do that here.
    But I would tell you flying back and forth, even halfway 
across the country every week is hard work. It's tiring. It's 
exhausting. You start the week you feel like you haven't had a 
break.
    Just in our own experience, and I'm not flying the 
airplane. You know, I'm sitting in back catching a cat nap. 
That can't be a good thing.
    And I appreciate what I'm suggesting here probably turns 
the system upside down. But if you show up tired, you can't fix 
that until you get some rest.
    Mr. Babbitt. That's correct. And the rule as it's stated 
today--and perhaps what's being suggested is that it is 
insufficient but the rule today says that you won't show up 
tired, that you have an obligation, a professional 
responsibility, as does the carrier, to make certain that 
you're fit.
    Senator Johanns. But we don't police that, do we?
    Mr. Babbitt. I'm sorry?
    Senator Johanns. We don't police that. I mean nobody is 
standing there saying did you fly through the night to get 
here?
    Mr. Babbitt. No, they don't.
    Senator Johanns. OK. Now let me ask you a little bit about 
experience. I always assumed that the pilot and co-pilot were 
equally capable of taking over and flying that airplane. I 
always thought that that was the safety valve I had.
    I'm beginning to question whether that assumption was 
correct. I'm beginning to wonder whether co-pilot is training 
ground. And that the co-pilot is there, hopefully, to someday 
get to a point where they can be the pilot.
    Is that a more accurate read of this than what I thought 
before?
    Mr. Babbitt. Both pilots are very well qualified. They go 
through the same basic training procedures. But, the captain 
has some more stringent requirements in his training, 
regardless of whether the co-pilot has an Air Transport Pilot 
Rating or not. The co-pilot simply doesn't have to demonstrate 
some of the maneuvers that a captain has to demonstrate.
    And along with that the co-pilot also can't perform some of 
the functions in certain weather conditions. There are more 
restrictions on what his capabilities are recognizing that 
everybody has to start somewhere. I mean, you know, utopia 
would be that every pilot in every airplane had flown captain 
for 5 years. But that can't happen.
    So, we do have restraints in place. We say that when a 
first officer is new, he can't fly with a new captain.
    First he flies with a check pilot, who is trained to watch 
him. For the first 100 hours he flies, he's with a very 
experienced pilot.
    Next he can fly with someone other than a check pilot, but 
he can't be an inexperienced line captain. He has to also have 
a significant amount of time as a line operating pilot in order 
to have a new co-pilot. So months go by while this new co-pilot 
gets some exposure.
    So, there are some protections in there. But the reality 
is, it's simply impossible that everybody could come in 
qualified as a captain with experience in their pocket already. 
Everybody has to start somewhere.
    And the way we protect that is by restricting some of the 
things we allow them to do as first officer with not enough 
demonstrated experience.
    Senator Johanns. Is the training ground or level of 
experience different if I'm flying from Scotts Bluff to Laramie 
than if I'm flying from New York to San Diego?
    Mr. Babbitt. No, sir. However, some routes actually 
require, for example, high altitude airports, or airports in 
foreign countries that have unusual approach procedures, some 
special training. But other than that, you're completely 
qualified to operate the aircraft anywhere in the system.
    Senator Johanns. Let me ask a quick question, if I could, 
about--and I'm going to pass by salary, although that worries 
me. I just want to say, though, I think somebody who is making 
as low of a salary as some do working far smaller carriers is 
of concern. I don't know how they're supporting their family 
and maybe it's not our role to get in the middle of that. But 
if it impacts safety, it's our responsibility.
    But I want to get to equipment. When I was Governor, we had 
a state plane. And I'll never forget the first day the pilot 
turned back to me and said, ``I'm turning on the de-icing.'' 
And I looked out at the wing--and could see some ice building 
up.
    Then I saw this balloon expand. And I thought to myself, 
wow, that's it? Tell me about the Buffalo flight and the kind 
of equipment that they were using.
    And I just want your honest assessment about how good that 
equipment is in a flight pattern that's going to deal with 
icing issues on a regular basis.
    Mr. Babbitt. Well, we just issued a very, very exhaustive 
icing rule, again recognizing the time it takes to put one of 
these rules out. However, we took emergency action on over 100 
air-worthiness directives to make people and specific pieces of 
equipment follow new criteria in areas ranging from how the 
equipment worked to the instruction and the recognition by 
pilots of when they're beginning to ice. So those were very 
important steps.
    That airplane was completely compliant. While this 
investigation is not complete, I don't believe that it's going 
to find and I don't want to prejudice an NTSB investigation. 
I'm not going to comment on that. But I don't believe icing was 
a causal factor here. The causal factor was the failure to 
recognize a very fundamental stall warning and the fundamental 
inaction or improper response to a very basic warning that the 
crew had been well trained for and simply didn't follow the 
procedures.
    Senator Johanns. Thank you, Mr. Chairman.
    Senator Dorgan. Thank you very much, Senator Johanns.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. And 
thank you, Mr. Babbitt, for being here. I appreciate it.
    As usual I try to attend these when you're here because I 
always have some parochial issues, but some broader sweeps. But 
first I want to do a couple, if I can, a couple of comments on 
Alaska issues which obviously I view this hearing not only an 
update on fatigue and others, but a general kind of update on 
your survival for 6 months so far.
    And the first one is in Alaska, you know, our flights 
service stations in Alaska are not contracted out. We're the 
only one that's not contracted out. All the rest are contracted 
out services.
    And of course, we appreciate that. We think they do a great 
job. Our concern and my concern is that there are vacancies 
occurring. Training is not occurring to replace those people.
    And what I'm starting to hear is that folks are concerned 
that it's basically FAA's letting it kind of peter out so then 
they can have an excuse to contract out. And that concerns me. 
And I will only tell you from a personal experience as someone 
who has to fly a lot in Alaska, most recently on a regional, 
small, very small eight seater, coming out of a small town back 
to Anchorage International which very rarely, I cannot recall 
other than volcanic ash that closed it down for a period of 
time.
    We were circling multiple times because the fog was so 
thick which I had never seen. Since I was born and raised 
there, I had never seen it this thick. And of course, you know, 
the stations were doing what they were doing, giving us the 
right information.
    And we were also getting a little concerned about fuel 
because there wasn't intent to go further than where we were 
headed. We did end up cutting through the fog individually, 
based on the service center's recommendation on where to land 
at a different airport. The poor person that was with me from 
Washington, D.C. who had never been in a small plane, had an 
experience of their lifetime.
    But those service centers are critical. And the people that 
run those, we greatly appreciate. I don't want to discount what 
goes on in the lower 48, but what we've done in Alaska, I 
think, has been a very good job.
    We have capacity to train these folks in Alaska. But the 
concern is that they are not filling the vacancies. With the 
rumor mill ripe with this is how they're going to contract it 
out.
    So I want to make it very clear. We are not interested in 
contracting. And I'd like to get from you at a point, you don't 
have to do it now.
    But at a point when you can give me an update on what's 
happening there. And what the vacancy levels are. What the 
plans for training is and what the rollover rate is.
    Those are critical people for air conditions or conditions 
in Alaska. And my experience was about a month and a half ago. 
And it reassures me the quality of people we have working 
there.
    So if you could?
    Mr. Babbitt. Yes, sir. You have a very high quality team up 
there. That's a unique environment. Let me assure you that 
we're looking at this.
    We recently had a new Federal ruling that allows us to do 
two things.
    One, we can continue people who would otherwise be at 
retirement, if they'd like to stay, they may. We can even go 
back and people who thought they wanted to retire and then 
realized later, gee whiz, I actually would rather be working 
again. This new Federal rule allows us to go back to an 
annuitant which was previously prohibited. We can now re-engage 
them.
    I don't have the full details. But I will get back with you 
and your office to make sure that we have the staffing levels 
that are required up there.
    [The information referred to follows:]

    The Federal Aviation Administration is responsible for the 
operations and staffing of the 17 flight service stations (FSS) in 
Alaska. These consist of parent facilities in Fairbanks, Juneau, Kenai, 
and Palmer with 13 satellite facilities elsewhere across the State. As 
of December 11, 2009, we have 192 full-time personnel supporting these 
facilities with 3 vacancies.

    Fairbanks (includes Barrow and Northway)

        Onboard--46
        Vacancy--1

    Kenai (includes Cold Bay, Dillingham, Homer, Iliamna, and McGrath)

        Onboard--68
        Vacancy--1 (non-FSS specialist)

    Palmer (includes Nome, Kotzebue, Deadhorse and Talkeetna)

        Onboard--26
        Vacancy--0

    Juneau (includes Sitka and Ketchikan)

        Onboard--38
        Vacancy--1

    Regional Office Administration

        Onboard--14
        Vacancy--0

    Maintaining the necessary numbers and experience levels for our 
Alaskan FSS workforce is a top priority of the FAA. Presently, despite 
only having three vacancies, we have a growing number of individuals 
who are either at or nearing retirement eligibility. As of today, 97 of 
the current 192 employees were eligible to retire. This number will 
increase by 9 in calendar year (CY) 2010, 11 in CY 2011 and 10 in CY 
2012. A recent survey of retirement-eligible employees showed that 13 
of the 97 are likely to retire before June 2010.
    Flight service station personnel are classified as air traffic 
control specialists and, as such, they may not perform air traffic-
related functions beyond age 56. Currently, however, this requirement 
can be waived at the discretion of the Administrator. The FAA FSS 
program office has and will continue to consider this option for those 
FSS specialists who desire to continue their FSS duties beyond age 56.
    Training of future FSS specialists has changed since Lockheed 
Martin took responsibility for delivery of FSS products in all states 
but Alaska. Rather than training a limited number of FSS specialists at 
the FAA Academy at the Mike Monroney Aeronautical Center in Oklahoma 
City, Oklahoma, the FAA will be providing training for Alaska 
specialists at our facility in Kenai. We are finalizing the updated, 
localized curriculum for a class that will commence in early 2010. 
Employment bids for both in-state and out-of-state candidates to 
populate this and future classes will be released within the next 
several weeks. Once candidates are selected and their initial training 
is complete, they will be assigned to a principal duty station where 
on-the-job and local area knowledge training will occur. It is 
anticipated each applicant will take from 12 to 24 months to reach 
full-performance capability as an FSS specialist.

    Mr. Babbitt. And I have no intent of making any change in 
that environment. So that I think I can assuage that fear for 
you.
    Senator Begich. Great, thank you. The second one, which I 
want to thank your office for. We had to get waivers to oxygen 
to be moved by plane as you know. Your Assistant Deputy 
Administrator helped a great deal on that.
    Literally we were in some cases 2 days away from people 
losing their capacity to have oxygen to live. And we had to 
have waivers. And I appreciate your office.
    But the one thing they didn't grant which is waivers, again 
for oxygen tanks for construction. And the reason construction 
is because you're using them for welding them and so forth. 
We're now transporting these 250 pound containers on snow 
machines across the tundra in the winter. I don't know if 
that's very safe, to be very frank with you because they're not 
going on a smooth ride.
    So, if you could look into that I'd greatly appreciate 
that.
    Mr. Babbitt. Yes, sir.
    Senator Begich. They did the first half which was 
fantastic. I mean, literally made a difference in people's 
lives overnight. And it's just a unique situation of 
transporting those facilities because we can't do it by road. 
It's just not possible.
    Mr. Babbitt. Oh, I'm aware.
    Senator Begich. Let me follow up on a couple quick things. 
I only have a few seconds left. But when people--when pilots 
are denied by their carrier not to fly because of fatigue, is 
there a record by the airlines when that happens?
    Do you know how many of those have ever occurred? In other 
words where an airline says you know what? You look a little 
too tired or the pilot says, I'm too tired. Is there such a 
record or documentation that you could say it's actually that 
they're doing it?
    Mr. Babbitt. If those records are being maintained, 
Senator, they're being maintained by the carriers. I will tell 
you that I think a number of carriers have addressed this 
pretty aggressively. They have what they call commuter letters. 
If the commute itself has led to some fatigue pilots have a 
vehicle which they can take themselves off a flight.
    And this is, again, this is an industrial solution. So 
they're different on different carriers. But some of the 
carriers that I've seen, have language that allows pilots to 
take themselves off a flight. And in return they're willing to 
make up a flight on another day when they're rested.
    Others have different ways. Sometimes----
    Senator Begich. But do you--I don't mean to interrupt you, 
Administrator. But do you do random reviews to see? I mean, I 
don't want to be critical on the airline industry because I 
think generally it's an amazing safe industry overall. But we 
have some issues.
    But what they tell you and what you see may be two 
different things. So do you have capacity? Do you have 
authority and capacity to say I want to see the last month of 
how many people you--pilots said, no, I can't fly because of 
fatigue or you have turned away as pilots because of fatigue? 
Do you have one capacity? And have you done that?
    Mr. Babbitt. We have not made that recommendation to my 
knowledge to go in or requested that type of inspection. I'm 
certain if we did that the carriers would volunteer it. What 
you would be asking----
    Senator Begich. So you have capacity? You have legal 
capacity, you think, to do that?
    Mr. Babbitt. I don't believe we do.
    Senator Begich. Oh, OK.
    Mr. Babbitt. I don't believe we do.
    Senator Begich. They will voluntarily.
    Mr. Babbitt. I would see no reason why, as long as we kept 
the information proprietary.
    Senator Begich. Sure.
    Mr. Babbitt. That a carrier, if we said, how many people 
called in sick last month and how many called in sick and how 
many said they couldn't fly due to fatigue, not illness, but 
fatigue? I'm very comfortable the carriers would share that 
with us.
    Senator Begich. I've gone way past my time here. I just 
want to say your example of when you posted on the website. I 
remember as Mayor I did that on a couple things when people 
weren't paying their bills. And I put them on the website. And 
it was amazing the collection rate spiked rapidly.
    So I think that's a good idea. Take it one more step. I 
mean, I was glad to hear about it today. But if I wasn't here I 
would have not known that, you know.
    Mr. Babbitt. Thank you, sir.
    Senator Dorgan. Thank you, Senator Begich. Senator 
Hutchison is the Ranking Member of the Full Committee. I want, 
as a matter of courtesy to recognize the Senator.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. And thank 
you, Administrator Babbitt.
    Let me say first of all, that we must acknowledge how safe 
overall our aviation system is. And we make that our highest 
priority. It's your highest priority. And we will always do 
that.
    However, as we all know, the Colgan Flight 3407 is weighing 
on our minds. And we've learned a lot from the investigation. 
But we now must act.
    Let me first ask you. On the time table, I understand that 
the end of January is when you're looking at completing the 
studies and the data. But then you have a notice of proposed 
rulemaking. And that drags out.
    So let me ask you. And you know that we sent you a letter, 
a very bipartisan letter, by Senator Dorgan and Senator 
Rockefeller, but also Senator DeMint and I signed it along with 
other members of this Committee, including Senator Thune, 
Senator Snowe, and Senator Klobuchar, asking how can we do this 
faster. So that's our question to you.
    Mr. Babbitt. Well when we publish the notice of proposed 
rulemaking we are obligated by the rules of Federal procedure 
to take comments. And people have a comment window that we have 
to observe. We have to then digest those comments.
    A good example parallel to this one and near and dear to me 
is the section for training pilots. We had 3,000 pages of 
comments that we are obligated to digest, summarize and then 
incorporate if we could. So I really don't have a good direct 
answer as to how to make this faster. But, I can assure you, if 
there are gaps in there, we're going to close them as quickly 
as we can.
    Senator Hutchison. Could I ask you though, don't you have 
an emergency authority as well? If you see something that you 
think can be addressed quickly. I mean, when we've had the 
screw on a cap being not correct, you've done emergencies, or 
the FAA has in the past.
    Is that a possibility in this instance because people are 
really concerned about the fatigue issue?
    Mr. Babbitt. Well as part of our ``Call to Action,'' we 
reviewed with all the carriers their fatigue and risk 
mitigation procedures. And the carriers have been very willing 
to comply. I was also very pleased to see several of the unions 
take very progressive action, and write serious pieces in their 
publications to their members, the Air Line Pilots Association 
editorial.
    You know, we have to remember that every day 20,000 pilots 
are going to go to work. And they're going to do a great job. 
They're professionals. We're trying to find the two or three 
that aren't.
    And that's, you know, that's the hard part. So----
    Senator Hutchison. Well let me just ask you this. Will you 
reserve the capability, if you see something that can be done 
on a more expedited basis, on a temporary measure obviously to 
act? While you're completing this rulemaking, will you at least 
hold open the possibility that if you see something that can be 
done more quickly on a temporary basis you could do an 
emergency order, if you decided it was warranted?
    Mr. Babbitt. Yes, if the data that we had indicated that we 
had a gaping hole somewhere. Absolutely, I would act. And I 
appreciate, you know, the letter that you all had written.
    It's hard to convey here, but there's nobody pushing this 
any harder than I am internally. And I've been at it a long 
time. And this is something near and dear to me as well.
    I should mention that as part of the ``Call to Action,'' we 
asked people to respond with commitments to adhere to the 
highest professional standard with specific commitments on 
certain key topics and 80 of 98 carriers responded. So we now 
have increased commitment for FOQA. We have ASAP programs. 
These are voluntary programs.
    Senator Hutchison. Well that's very positive.
    Mr. Babbitt. Very positive. And the ones who didn't, in 
most cases, have a pretty darn good reason. They're just too 
small to really adopt a program with two or three pilots or one 
airplane.
    Senator Hutchison. Well let me just say in closing that I 
am very concerned along with Senator Rockefeller. We had an 
amendment in the Stimulus bill to try to have some incentives 
for private investment in NextGen. He asked the NextGen 
question which I would have asked if he hadn't asked it first.
    But I'd say it's probably our highest priority, the 
Chairman and myself, for the next step in safety as well as for 
preparing for the capability to have the robust airline 
industry that we want to have as the economy improves and 
people are able to travel and our airlines get stronger. So 
know that that's something that both of us consider very 
important. And if we can go forward with some public/private 
partnerships or incentives, I'm certainly going to be 
supportive of that as well.
    So we'll work with you on that. Thank you very much.
    Mr. Babbitt. I appreciate that support.
    Senator Dorgan. Senator Hutchison, thank you very much. And 
let me reiterate NextGen is, for me as well, a major priority. 
It enhances safety. There's no question about that.
    And we've got equipage issues. We've got a lot of issues 
with NextGen. You know, in my judgment it's not acceptable to 
have 2020 and 2025 end dates here.
    We need to move, move aggressively and quickly. And I share 
Senator Hutchison's comment and the comment Senator Rockefeller 
had. NextGen has to be a significant priority. We will have 
additional hearings on that very subject.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Thanks for holding this hearing. Thank you, Director, for being 
here again.
    Let me say that, first of all NextGen is a priority for me 
as well. But and I would reiterate what Senator Hutchison said 
that our air transportation system is, without a doubt, the 
safest in the world. But clearly we cannot rest on our past 
achievements.
    And this point was proven earlier this year with the 
tragedy of Colgan Air, Flight 3407 which brought the safety of 
our airlines back into the public eye. And what was so chilling 
for me was to learn about these fatigue issues, to learn about 
some of the training issues with regional flights. And the most 
chilling was the conversation that was recorded between the 
captain and the first officer when the first officer told the 
pilot I've never seen icing conditions. I've never deiced. I've 
never experienced any of that.
    So actually as a result of some of our hearings starting 
looking into these deicing rules and what had been happening. 
And I was really shocked to find out, and of course as soon--
you weren't at the helm at the time. But this de-icing rule has 
been pending for 12 years.
    I raised this issue earlier in a letter to Secretary LaHood 
a few weeks ago. And I was pleased. I worked with the new head 
of ORIA, Cass Sunstein, to try to move it out of OMB. And we 
were able to now get it out for public comment. But that's 12 
years.
    And I was just thinking when you said 3,000 pages for this 
newest rule. Even if you had 3,000 pages for this de-icing 
rule, it would be 250 pages a year or something like that over 
a 12 year period. I mean, we just can't let this rules sit for 
12 years.
    So my first question is about that timing issue. And that 
is can you assure us that this flight time rule will be 
completed by 2010? The fatigue rule.
    Mr. Babbitt. By 2010?
    Senator Klobuchar. MmHmm.
    Mr. Babbitt. You mean December 31 of this year?
    Senator Klobuchar. December 31 of next year.
    Mr. Babbitt. Oh, next year. Yes, I can. I'm the person who 
wanted it out by the end of this year. I now understand some of 
the complexities. I've worked with it over time.
    One thing I do want to say is that for some of these 
rulemakings while the rule itself may take a while, it doesn't 
mean that the underlying issue that the rule is protecting 
hasn't been addressed. And de-icing is a good example.
    Because of the timeframe, we acted immediately and issued 
over 100 air-worthiness directives that protected the very 
thing. What this rule does is gathers all those up in one 
place. We had to issue 100 air-worthiness directives.
    So safety itself wasn't left exposed, we were doing it with 
air worthiness directives.
    Senator Klobuchar. OK.
    Mr. Babbitt. But the underlying safety issue was protected.
    Senator Klobuchar. Right. That's very good. But you agree 
that we'd like these in a rule.
    Mr. Babbitt. Oh, absolutely.
    Senator Klobuchar. I certainly thought of that when we had 
our laptop over flight issue out of the Twin Cities airport 
where the flight, the carrier, had a rule you couldn't be doing 
personal e-mails and texting and looking at your computer. But 
there wasn't a rule in place as we're trying to solve in the 
Congress right now.
    The other issue that has emerged from the Colgan crash has 
been the adequacy of flight schools. And the captain, as was 
noted, was a student in a flight school that grooms students in 
as short as 6 months. Many of these pilots then land jobs at 
regional carriers.
    Can these flight students and trained schools train 
students to be commercial pilots in such a short time to 
adequately prepare them to fly 100 people in the air?
    Mr. Babbitt. Well that's why we're making the suggestion 
that we're making. And again, I think there has been some 
misunderstanding that I'm somehow opposed to the idea that we 
have better training.
    I was looking at better training before anybody brought the 
issue up. I am concerned about the elements of training. And I 
am concerned that we're not giving people the elements they 
need to do the mission they're doing.
    If somebody is going to be a crop duster for commercial 
aviation, they better learn some things about low altitude 
flying. And they better know that business pretty well. If 
you're going to carry passengers to take the responsibility of 
carrying anywhere from 10 to hundreds of passengers with you, 
you have an obligation. We have an obligation to make sure that 
you have been trained and exposed to every potential scenario 
that we can imagine today although there will be some unknowns.
    You know, the flight into the Hudson was a great example. I 
mean, I flew for 25 years. I hit a lot of birds. But no one 
ever thought that you could ingest enough birds to kill both 
engines. It happens, you know.
    Senator Klobuchar. So it's--right. So the training is key. 
And then the other thing we've talked about is just this idea 
of the regional airlines themselves as kind of a farm team for 
the major carriers. And I have asked this before of people if 
this is seen as a stepping stone for a job with a major 
carrier. And the answer is commonly, yes.
    But what I'm wondering about is, how is the safety impacted 
when you have this type of farm system? And if regional 
carriers understand that their pilots are only working for a 
short time or a number of them are, what incentives do the 
regional carriers have to invest in these pilots and provide 
them with anything more than the bare minimum training if 
there's so much revolving door going on or people leaving the 
regional carriers? And how do we fix that?
    Mr. Babbitt. I'm not here to defend the regional airline 
industry, but I think there's a little bit of misunderstanding 
there. I was in the private sector for 42 years. I've been in a 
government seat for 6 months. So my exposure in the private 
sector is far more vast.
    And so I understand, you know, all sides, both large 
airlines and small ones. There are any number of very senior, 
well qualified, 20, 25 year pilots at regional airlines. They 
love their jobs there.
    Maybe they live in smaller towns. They enjoy----
    Senator Klobuchar. I believe that.
    Mr. Babbitt. So it's a career for them. And it's a career 
for a lot of people. There are other people----
    Senator Klobuchar. But how about some, I mean, some of the 
younger pilots with the training which we need too, but don't 
stay as long. I mean, do you think the regional airlines are 
investing as long and as much in their training, especially 
after they startup with the airlines of some of the major 
carriers? And do they have the same kind of training facilities 
as the major carriers?
    Mr. Babbitt. Many of them do. I can't speak for all of 
them. But, if you recall, in our ``Call to Action,'' one of the 
things that we asked was that our inspectors go to every 
facility and review all the training.
    And yes we did find some areas that could use improvement. 
They were meeting the minimum standards. You're also seeing, 
following the ``Call to Action'' a number of large carriers, 
most of the large carriers now are holding meetings with their 
regional partners----
    Senator Klobuchar. Good.
    Mr. Babbitt.--to ensure that they have the same level of 
commitments to training and the safety forums and the 
discussions how to better mentor. All of these things have gone 
onto the table now.
    Senator Klobuchar. Thank you very much.
    Senator Dorgan. Senator Klobuchar, thank you very much.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I appreciate 
the continued focus on this important subject. The Committee 
has been working on legislation that will address a lot of 
these issues, as you know, Mr. Administrator.
    I think one of the questions that I've raised in the past 
had to deal with the pilot's records and their availability to 
a perspective employer.There is a distinction between those 
having to be voluntarily turned over as opposed to a 
perspective employer having access to those records, which I 
think is really important in making hiring decisions. I know 
the legislation addresses that issue.
    But I wanted to focus on a couple things. One is that you, 
in your testimony, talked about the distinction between 
quantity and quality. And I won't deny that there is--you 
can't. You know, I'm not playing in the NBA because I don't 
have a skill level to get there. There is a difference between 
it. No matter how many hours I would practice.
    But I do think there's something to be said for experience 
and having a sufficient number of hours. And this is one of the 
issues, of course that I think has been focused on as part of 
our deliberations here as well. But how do you square that up 
when you've got, say, a DC-9 that might be flying from 
Minneapolis to Sioux Falls, South Dakota, that has 30 
passengers on it, compared to an RJ that's full that has 50 
passengers.
    I mean, clearly the number of people that a pilot is 
responsible for on a regional jet could be more than you might 
have as a pilot flying the full-size jet. And yet the number of 
hours requirements and the distinction that's made in terms of 
the experience and what you alluded to is the quality verses 
quantity distinction. I'm interested in hearing you elaborate 
on that, because it seems to me, at least, that the number of 
hours of experience the pilot has got to be a part of the 
equation in determining whether or not that pilot is equipped 
and qualified to fly some of these planes.
    Mr. Babbitt. Sure. Well it wouldn't really matter to me 
whether they had one passenger or 100. They should be as 
eminently qualified as we can make them.
    And in that case everyone, whether they're flying a 
regional jet or a 777, they would have to have an airline 
transport rating. And they would have exactly the same 
qualifications. What comes into question is, who can sit in the 
right seat. Who can be the co-pilot?
    And under today's legislation and regulations that person 
can have a commercial pilot's license. And over the years--as I 
alluded to--I think we became somewhat dependent on the fact 
that the traditional airline industry, the model of 20 or 30 
years ago, pretty much assured the co-pilot would sit in that 
right seat for a number of years.
    And he or she would be exposed to icing. They would have 
high altitude. They would have mentoring. They would learn 
their trade sitting in the right seat.
    And that was OK. But what we have today is that when a new 
airline forms, they hire 100 pilots. Guess what? 50 of them are 
going to be captains and 50 of them are going to be co-pilots 
with no guarantee of any assurance for us that they've achieved 
any of this experience.
    So what I'm suggesting is in terms of the number of hours 
an advanced notice of proposed rulemaking in which simply, you 
put it out for suggestions. And what I propose to explore 
through this ANPRM is the concept that if you're going to go to 
work for a 121 carrier and you're going to sit in the right 
seat, then you need to bring the day you come to work, a set of 
credentials that's completely superior to what you're going to 
be asked to bring today or allowed to bring today.
    You're going to have had icing training. You're going to 
have had upset training. You're going to have operated in a 
multi-crew environment, in a simulated environment. You're 
going to have seen all of these things.
    What concerns me is to simply say that you need some number 
of hours. And I'm not sure what that number of hours is. Maybe 
it's 1,000 hours of experience needed along with those 
elements.
    I also think that when we get past here I think, as I've 
stated earlier, I think we need to take a look. We've come a 
long way in technology. We have aircraft that do a lot more 
today than they did when this rule was written.
    And I think some of the elements that are required to hold 
an ATP need to be revisited including the same things I just 
mentioned--the icing, the altitude upsets, all of these. Now 
carriers put them in. We need to have an assurance that when 
you go to work that you have those as a requirement.
    Senator Thune. I guess I'm just suggesting that there is a 
point at which quantity does matter where you have enough 
experience and enough hours operating some of these aircraft. 
And I'm not disputing the notion that the quality and the 
ability to fly in different types of circumstances and 
environments is important. But I do think that there is an 
assumption sometimes that these smaller planes aren't as 
difficult to fly. And therefore, you don't need as much 
experience.
    I don't think that is the case. So, I just wanted to focus 
a little bit on that.
    Mr. Babbitt. And I agree with you on that point. Sometimes 
the smaller operations into difficult airports are very complex 
and require a high level of skill.
    Senator Thune. Right. The other issue I wanted to mention--
I think Senator Johanns touched on it--is the issue which came 
into play on Flight 3407 and, of course, you had both pilots 
who had commuted to their flight.
    And one of the things that the letter that we sent to you 
was trying to do was to get the focus on the flight time limits 
that haven't been changed for a number of years. And FAA had a 
proposal. I'm told the language was pulled after being out 
there for some time. And that after some recent crashes it has 
been revisited, which is why the letter urged you to move 
forward.
    But as you might imagine, the airlines are not very 
receptive to the idea of reducing flight times for crew because 
obviously you're going to have to hire more pilots. And that 
costs more. And it's going to impact scheduling and everything 
else.
    But I'm wondering about this issue of commute times too. 
Before somebody gets on a plane to fly a plane, what is the way 
that you calculate the number of hours that pilots can fly? 
We've talked a lot about this. I want to hear your thoughts and 
perspective about how that can be addressed. There's clearly 
very much at issue in this particular incident where you had 
pilots that came in, were sick, had had long commutes, sleeping 
in the airport crew lounge. I guess the policy allows this so 
that they log hours sleeping.
    But this clearly adds to the amount of time that they've 
been flying and been up. And I'm sure it has got to effect 
their ability to be alert when it comes time to actually fly 
the plane.
    Mr. Babbitt. Well that's an issue. We've talked about it 
several times here. I am concerned about simply coming up with 
a prescriptive rule that identified pilot commuting.
    It's really not much of a burden on the carrier. The pilot 
would have to simply leave home earlier in order to get some 
amount of time. I'm presuming everybody is saying that well you 
need to be someplace in some zone.
    But it's very difficult when you begin to think about what 
that zone is going to be. Who decides who commutes and who 
doesn't? Where do we draw the circle?
    I'll give you an example. I've been based here in 
Washington, DC. Much of my career I was based in Washington, 
DC.
    A number of the pilots lived in Annapolis. It's 55 miles to 
Dulles. Were they commuting? I mean they did most of their 
trips out of Baltimore. But sometimes we had to fly out of 
Dulles.
    I lived at Dulles. I hated to fly out of BWI because it was 
an hour-and-a-half drive up there. And if it was bad weather I 
was looking at a couple of hours if it was an ice storm or 
something.
    Was I a commuter? I lived here. I was based here. This is 
my domicile and I lived here.
    I mean, there are just so many ways that somebody could 
show up fatigued. And it's very difficult to put your arms 
around well is it the fatigue issue or do we have some 
prescriptive rule that says, OK, you commuted. You had to be 
here 12 hours.
    We don't have any assurance if those 12 hours were good 
rest. We don't have any way of measuring the quality of the 
rest you got anymore than we have a way of measuring the 
quality rest for me if I live here and I had a child who was up 
at midnight, or who I took to the emergency room at 2 o'clock 
in the morning. If I was due out on a flight at eight, I have 
no business flying that flight.
    But I'm not a commuter. So these are some of the 
difficulties that we're faced with. And the burden would be on 
the pilots not the carriers.
    Now I will tell you on the broader rule you mentioned some 
concern that the carriers, you know, say well this could cost 
more money. If it's uniform to everybody it doesn't make any 
difference. If the price of fuel goes up two cents for all of 
them, it just went up two cents for all of them.
    And collectively they won't like that, but at least it's 
not an unfair burden. You're not asking somebody to carry a 
burden that the other ones don't. And in this case it's in the 
interest of safety. And it's a burden I think they'd bear.
    So I'm not overly concerned about the fact that we might 
have, you know, some additional pilot staffing that would come 
from this.
    Senator Thune. OK. Well I know when you're living somewhere 
and commuting, you may commute an hour-and-a-half or 2 hours to 
get to the airport to fly. But I think there's a big difference 
between that and commuting from Seattle, you know, to a flight 
that departs from New York. I mean that is a very long commute. 
And fatigue would certainly come into play.
    Mr. Babbitt. Well, that's one of those issues of 
professional responsibility. I certainly wouldn't if I knew I 
was going to have to fly at 8 o'clock in the morning. I 
wouldn't get on a flight at midnight and think that I could 
jump seat all night long and have any expectation that I'd be 
ready to fly. I simply wouldn't do that.
    Senator Dorgan. Administrator Babbitt--Senator, thank you 
very much, Senator Thune.
    Administrator Babbitt, I have a number of questions. But I 
believe a couple of other colleagues have probably wished to 
ask a second round.
    Let me just--I have questions about pilot's records and the 
equipment outage that occurred on November 19. So I want to ask 
them before we end and some NextGen. But let me ask you about 
the Colgan crash, if I might.
    Just generally speaking because I think you--I thought you 
said earlier that you felt that the training was sufficient in 
that cockpit. And I, you know, I guess I have tried to read as 
much and learn as much as I could about that crash. 49 people 
lost their lives in the airplane. That includes the crew of 
that aircraft and one person on the ground.
    As I have looked through this, it seems to me there are a 
number of things that cause significant questions about that 
cockpit. And I don't know whether it's just an aberration. It 
just so happens this is the one airplane out of a lot of 
flights. But because a lot of things went wrong this is the one 
that crashed as well, but it doesn't exist elsewhere or the 
question of the training, just as an example.
    You're a pilot. You've flown a lot. You know and I know 
that I believe it was a stick pusher.
    Mr. Babbitt. Stick shaker went off first.
    Senator Dorgan. Stick shaker first. Stick shaker went off 
first and then the stick pusher. And the crew prior to that 
time--let me ask the question a different way because I'm--
first of all you indicated this wasn't ice.
    Of course the reason that the nose had to go down was 
because of ice. They needed to pick up speed. That ice was 
causing more drag and so they had to get that nose down. That's 
why I assume that the stick pusher was reacting.
    But my understanding is that neither of the people in that 
cockpit had had in-flight training on a stick pusher. So if 
you, God forbid, had been a passenger on that flight, would you 
feel like there had been adequate training on at least that 
portion of the procedures with respect to that cockpit crew?
    Mr. Babbitt. I think this accident has shown us that the 
fact that they were exposed to the stick pusher which is the 
action of last result. The sequence, the airplane had been in 
icing conditions. But the airplane was not icing. It had its 
equipment on.
    Senator Dorgan. Well it was icing, but what about the boots 
and the hot prop were so were dealing with the icing, right?
    Mr. Babbitt. Right. And what they had done they had begun 
to slow the airplane down and put a lot of drag devices out, 
flaps and so forth and failed to monitor the speed drop off. 
When it dropped off, the stick shaker went off and instead of 
giving full power which they should have done, for some reasons 
known only to them, they thought they could recover with 
partial power, which they couldn't.
    The airplane then went to the second phase, the back-up 
phase and said if you're not going to lower the nose, I will. 
And that's when the stick pusher took over. They had been 
exposed to that training but not in the fidelity that we could 
give it to them. And I think we probably should look at that.
    Senator Dorgan. So had you been a passenger you wished 
there had been more training on that exposure that's in flight 
or right, I mean. So I'm just asking is there a training issue 
here? The answer it seems to be is yes.
    Then the question is, is there an experience issue here? 
The person in the right seat talked during the recording that 
she didn't have much experience or understanding about ice. And 
so on.
    And we know the hours of both the right seat and the left 
seat and also the pilot's records in the left seat. So is there 
an experience issue in that cockpit?
    Mr. Babbitt. I think this investigation is going to point 
to that. The training issue you point out why someone can be 
trained in something and then not do what they were trained to 
do is what befuddles most of us.
    Senator Dorgan. And is there a commuting issue with respect 
to this flight, do you think? If you, God forbid, had been a 
passenger or a loved one of yours was asking these questions 
and one person flew from Seattle to New York, the other person 
from Florida to New York with no evidence of either having been 
in a bed. Is there a commuting issue in terms of causing 
fatigue?
    Mr. Babbitt. Commuting is what they did. But the lack of 
professional planning on their part is what really troubles me. 
Why would you do that? Why would you think that you could 
commute from here? Why would you come home from vacation, you 
know, 4 hours before departure. So----
    Senator Dorgan. I understand. But what I'm trying to say is 
that I think a whole series of things came together in that 
cockpit that was certainly troublesome to me as an observer 
after the fact. The training, experience, pilot records, as you 
know the CEO of Colgan indicated that had he had access to all 
the pilot's records that pilot would not have been hired. Are 
you familiar with that?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. OK. Training, experience, commuting, 
pilot's records, all four raise flags for me. And I guess my 
question is, is that just an aberration in that one cockpit on 
that one airplane or that a harbinger of things to come unless 
something significant changes?
    Mr. Babbitt. I think it was a very bad collection of 
events. But I think we have the wherewithal going forward to 
remove each of those. Any accident is always the culmination of 
a series of things. If we removed any one of them we wouldn't 
have had an accident.
    Senator Dorgan. And I've said before and I always want to 
say that that pilot and co-pilot, I'm sure were wonderful human 
beings, who cannot speak for themselves. And I always feel a 
bit bad talking about the two people in that cockpit who lost 
their lives. On the other hand, we don't have a choice but to 
talk about that.
    And I also know, speaking of pilots and flight crews, 
Senator Johanns pointed out most of us here fly all the time, 
all the time. And we know that there are a whole lot of men and 
women who fly those airplanes who do a terrific job, 
professional, great people. You know, I admire their skills.
    So, I don't want this either to reflect on the profession. 
But I do want to make sure that the things that we now know and 
I've cited some of them, represent an urgency in the FAA in 
terms of response because I think, Mr. Babbitt, when you were 
nominated I expressed that I was pleased with that nomination. 
You've got a wealth of experience. And you also now understand 
the--I've described previously about trying to get through the 
labyrinth of government agencies is like walking through wet 
cement. It's very hard, very hard to get things done.
    And yet, I think you reflect and understand--you understand 
that we're saying boy, we want you to move aggressively. And I 
think you come to this job not wanting to be a caretaker. You 
want to move aggressively. So I want to help you.
    I have other questions, but I want to call on Senator 
Rockefeller.
    The Chairman. I just wanted to comment. I agree with what 
Senator Dorgan is saying. I had an icing question, but I think 
that's been answered.
    And I just--and thank you. I want to say that you just 
sitting there and having observed what you do, you are a take 
charge. You are proactive. You don't react.
    You're proactive by nature because this is one of the most 
difficult jobs in all of Washington. It's also one of the most 
powerful jobs in all of Washington because you have the kind of 
power that most Americans don't understand. But we do.
    I fly into West Virginia almost never on a jet. I mean, 
it's I serve myself you know champagne if I'm actually at the 
end of a jet. We just don't have those.
    So, I'm always concerned about the icing thing. I always 
worry about them because you have a lot of bad weather in those 
hills. But what I want to say is what I said at the beginning. 
That the nature of this Committee has changed on all fronts, on 
all subjects.
    And it used to be sort of a go along type committee and 
keep the trains running, planes running. We're not that now. We 
are delving into.
    We have a crew of investigative lawyers who report just to 
me. And they can go anywhere they want and uncover any 
wrongdoing they want. And they have access.
    They use subpoena power freely. And the health insurance 
industry can tell you all about that, so could the Internet 
scam industry tell you all about that. That's what we do 
because we're fighting for people here.
    And this is not a statement to you, it's a statement, you 
know, to everybody. We care first and foremost about consumers 
and their safety. And we understand that we're in economic 
difficulties. We understand that everybody is, every 
corporation that has a small jet or a big jet or a small prop 
or a big prop, they're all under pressure. So is the general 
aviation industry.
    I talked to a guy last night in Texas. He says their sales 
are down something like 70 percent. You can buy a $25 million 
plane for $9 million. I think that's what he used.
    So I understand that. But we cannot be influenced by that 
with respect to matters of safety and consumer interest. And at 
that I want that message to go out loud and clear to all within 
reach of my voice.
    I thank you. I respect you. I think you're doing an 
excellent job.
    You have the personality. You have that straight ahead 
look. You answer questions directly. You don't avoid. And 
you're proactive.
    Thank you.
    Mr. Babbitt. Thank you, sir.
    Senator Dorgan. Mr. Babbitt, let me ask about pilot's 
records. The FAA has made it a part of their ``call to 
action,'' the ability for a potential employer to access all of 
the pilot's records. Is that correct?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. Good cooperation on that?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. Alright. The use of laptops, personal 
wireless communication devices in the cockpit during the 
operation, the commercial operation of an airplane, my 
understanding is given what we experienced, what we saw with 
the commercial airliner overflying by an hour and 20 minutes or 
so the city that it was aiming for. The pilots indicated they 
were working on their laptops on pilot schedules. I don't know 
what the real facts are, but that was what we know from public 
disclosure.
    We have introduced legislation to say that personal use of 
wireless communication devices like laptop computers by pilots 
operating a commercial aircraft would be banned. Now again, 
personal use, I understand there are wireless devices that can 
be used in the operation of an aircraft as part of the 
operation, but personal use. Do you support our legislation?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. And are you able to do something like that 
administratively? I was surprised to find that many commercial 
airline companies already prohibit this. But FAA regulations 
would not.
    And we just felt there ought to be a Federal regulation 
that prohibits it.
    Mr. Babbitt. This may be one of these areas where it was so 
obvious that you thought no one would need guidance. Laptops 
can be quite useful and a number of carriers provide them.
    They have databases for takeoff information. Some people 
have their flight crew manuals, and the aircraft manuals stored 
in laptops onboard the aircraft.
    Senator Dorgan. Right.
    Mr. Babbitt. That's fine.
    Senator Dorgan. Perfectly appropriate.
    Mr. Babbitt. A very good use of it. But anything, a 
magazine, doing Sudoku puzzles, anything that's distractive. 
They shouldn't be doing that.
    They have a function and anything that's distractive should 
be forbidden. At my old carrier, we weren't even allowed to 
have magazines or newspapers in the cockpit, period. If they 
were visible, they were banned.
    Senator Dorgan. November 19, the equipment outage that 
caused massive flight delays across the country. Can you give 
us a very brief answer? What caused that? And how can we have 
confidence that's not going to happen again? Essentially 
something similar to that happened a year ago.
    Mr. Babbitt. Yes, sir. I'm very familiar with this one from 
about 5:25 in the morning on, I was very aware of this. What 
happened was a router in a large network system was being 
replaced out in Los Angeles.
    And that router had been mapped improperly. And when it was 
put online it had a second problem. And this probably shouldn't 
surprise any of us, it was a human error involved. The 
installation team had suppressed a warning system.
    So, had it been put on with the warning system on it would 
have tripped itself off in about 15 seconds. And we would have 
known instantly. But that didn't happen. It was allowed to go 
online and put data in.
    I think it's important for everybody to understand safety 
was never compromised. What we lost was the ability to have our 
system automated. The ability to process flight plan 
information on an automated basis was what we lost.
    So the system worked. It identified that it had a problem. 
It identified that the data coming was erroneous, and it 
essentially warned us to shut the system down. But it gave us 
that warning much later than it should have due to the human 
error.
    Senator Dorgan. Alright.
    Mr. Babbitt. So as a result of that I have, as of about 2 
days ago, put together an independent review team. Now, 
remember this was a contractor for us. So I have asked the CIOs 
of the FAA itself and our Air Traffic Organization, along with 
the OMB, representatives from the Department of Defense and the 
DOT, all along with a couple of outside experts to take a look 
at this system. And I want answers on two grounds.
    Number one, in the short term, what happened? How did we 
allow this to happen? Number one.
    And number two, what have we done so that it never happens 
again? The second phase which is a longer phase of this report 
is going to be taking a good look at the network architecture. 
We're building a complete new infrastructure on this. And I 
want to make certain that we've got a robust architecture 
that's protected and is redundant and will never allow this to 
happen again.
    Senator Dorgan. We are working with the FAA, Air Force and 
others on the issue of air space for unmanned aircraft. As you 
know, UAVs or UASs are a significant part of our future in a 
range of areas. And there is a, I believe, an August 2010 
target date.
    I think Hank Krakowski from your organization is working on 
this. I just want to mention that to you because it is 
important that we continue to meet our deadlines there.
    And then I want to--I'm going to call on Senator Lautenberg 
in just a moment. I want to make one more final comment, then 
I'm going to have to depart. And I'll allow Senator Lautenberg 
to ask whatever questions he wishes to ask.
    I said to Ms. Gilligan, who was here about a week and a 
half ago, that we intend to monitor very, very carefully what 
is happening with respect to your rulemaking because Ms. 
Gilligan indicated that some of that had slipped. You 
originally were talking about December. She talked about 
January. You talked about today how difficult it is to do these 
things which are committed. But time lines are hard.
    We, again, after, for example just on that icing issue. 
After 19 years on the Most Wanted List, we really are going to 
be pushy. And we're doing that because we think it's essential, 
at last, at long, long, last to get to the end stage of this.
    You've been there a very short time. I understand that. And 
you inherit these things that are unfinished. And then it's 
your responsibility to finish them. And you will not like, 
perhaps, that we push. But we're going to push really hard.
    So, we want a good relationship with you, one in which we 
push and you deliver and America's skies are safer as a result. 
Again, I said when I started, I'm really pleased that you 
became FAA Administrator, frankly. I think you bring a wealth 
of experience to this job, more so than many others in past 
years.
    And you have the capability to do really good things. And 
we want to give you the tools to do it. And we want you to meet 
deadlines.
    And so I thank you very much for coming here. I'm going to 
send a list of additional questions, especially on the subject 
of NextGen, because that is a significant priority of ours and 
especially targets and timelines are important there----
    Mr. Babbitt. Yes, sir.
    Senator Dorgan.--as Senator Rockefeller and Senator 
Hutchison indicated.
    Mr. Babbitt. As a matter of fact, I have suggested to some 
of the staff that perhaps we could give you a quick tour of and 
a timeline for some of the things that we're doing. I think 
you're going to see a tremendous acceleration here. The 
components are coming together. I appreciate some of the push 
that you give us. You should rest assured there's some of that 
push going on internally from me.
    And so I would invite you and would be delighted to escort 
a group to show you live and in color what we are doing with 
NextGen, and what the potential is for it. So I welcome that. 
Thank you.
    Senator Dorgan. Mr. Babbitt, thank you very much.
    Senator Lautenberg, would you proceed and adjourn the 
hearing when you are completed?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. OK.
    Senator Dorgan. Thank you.
    Senator Lautenberg. How long shall I proceed before I 
adjourn?
    [Laughter.]
    Senator Dorgan. Until you run out of breath or run out of 
questions.
    [Laughter.]
    Mr. Babbitt. Or 5 minutes.
    Senator Dorgan. Or 5 minutes, as the Administrator 
suggests.
    [Laughter.]
    Senator Lautenberg [presiding]. Anyway, thanks for being 
here. And thanks Senator Dorgan, Senator Rockefeller for their 
constant attention to matters of air travel. And the--I am 
informed that we have some of the people from the families of 
those who lost their lives in the Colgan flight to Buffalo. And 
while there isn't a lot we can do for consolation, but to let 
them know that their presence and their interest can help us 
get to a place where perhaps we can make sure that something 
like that doesn't happen again.
    And so we're certainly pleased to have Mr. Babbitt as the 
Administrator. He has, as has been described, extensive 
experience. And we've had a chance to get to know one another. 
And I'm pleased at the interest and the action that he's 
committed to taking to provide safe travel.
    It's amazing when you think about it, about the record that 
has been composed over the years in aviation in this country. 
But even one slip is one too many. We should never have that 
happen.
    Runway safety and aircraft overruns continue to be 
significant problems, Mr. Babbitt. Recently a DOT Inspector 
General report highlighted dangerous runway procedures at 
Newark Airport. Now these procedures were brought to the 
attention of the FAA nearly 2 years ago by a Newark air traffic 
controller.
    But yet, the FAA has just now decided to act which we're 
pleased to see. But why did it take FAA so long to act on 
safety concerns raised by a veteran air traffic controller?
    Mr. Babbitt. That's a very serious issue for us, Senator. 
We have, I think you should know, that since I've been the 
Administrator, my chief council has created an office to 
completely revamp how we deal with the whistle blowers. And I 
guess the most important point I want to make is when someone 
raises a question and they have to ``blow a whistle'' to get 
the information to us, we've already had a breakdown. We've 
already had a slip in the system.
    And when people bring us safety concerns we should be 
dealing with them. I want these handled differently. Something 
went wrong. We had a failure to communicate. We had a failure 
of understanding. Something went wrong.
    And I want to change that. So----
    Senator Lautenberg. So we can count on you to be a willing 
listener or to make sure that someone is a willing, unbiased 
listener if complaints come from those employed in the system 
because----
    Mr. Babbitt. That's precisely what we're trying to create.
    Senator Lautenberg. And there has been in the past some 
concern about security of the jobs by raising complaints. And 
we don't want to hear about that anymore because we'll get them 
to the witness table and have them----
    Mr. Babbitt. And that completely flies in the face of what 
we're trying to achieve with safety management systems. I've 
testified here and other places and I've spoke about it. And 
before every professional group they can bring action and 
pressure for us. But we need to have a system that allows 
people to point out safety flaws that will guide us to avoiding 
accidents, avoiding problems, and avoiding conflicting runway 
issues. Any of these are worthy of being addressed and we need 
to find a vehicle to allow them to express it.
    Senator Lautenberg. Well certainly we know that when things 
go the other way when a mistake is learned about, when bad 
practice is threatening that the FAA should be quick to jump on 
it. And they should certainly be equally as quick to respond to 
something that comes from an experienced and working flight 
controller.
    I want to talk for a moment about Colgan Flight 3407. The 
first officer of that flight had a base pay of around $20,000. 
She traveled from Seattle on a red eye. She carried around some 
concerns, obviously, about her income, lived at home with her 
parents. And she may have also been ill at the time of the 
flight, but was afraid to lose the time that she would not be 
paid for, so much pressure.
    You and I talked about Captain Sully, the veteran pilot of 
the miracle on the Hudson. He was cut 40 percent in his salary 
in recent years forcing him to take another job. Given all the 
responsibilities that commercial pilots shoulder, should there 
be some review of salaries? It would be extremely unusual, but 
this is a--they don't send anybody up in a NASA shuttle unless 
they know they're in good health.
    There are so many other situations where heavy 
responsibility relies on an individual where their health 
isn't, their condition isn't a concern. And health includes 
reductions in stress and with an ease of facility to get to 
work and so forth. I am not against people having to travel to 
get to work. But the thing that should happen is there should 
be sufficient time to get to work and have enough of a time 
lapse that they can have some recovery time before they get in 
the cockpit.
    So the question of incomes ought to be somehow or other 
reviewed. And I'd like you or your department to do it or we'll 
do it from our offices, get some indication of what salaries 
are. And to see whether they're consistent with the 
responsibilities that go into the manning of the cockpit in an 
airliner.
    Regional airliners operate half of all domestic departures. 
They move more than 160 million people a year. Now if we have 
one level of safety for both regional and major network 
carriers, shouldn't the pilots of the regional carriers be 
trained and compensated at the same level as pilots for major 
network carriers, particularly if they're flying identical 
routes?
    Mr. Babbitt. Well the data that you mentioned earlier--
compensation records--are readily available. As a matter of 
fact they report them today to the Department of 
Transportation. Form 41 collects that data so we know what all 
carriers pay. And it's even broken down into cockpit, mechanics 
and so forth. So the data is available to us.
    Compensation varies among every carrier, based on the 
health of a carrier. And while I, you know, have concerns, it 
might not shock you to know that when I flew for Eastern 
Airlines, I took a 20 percent pay cut myself as a professional 
pilot and lost a substantial portion of my pension plan. So, 
I'm very familiar with what the economic impact of a carrier 
that is in stress and does these things.
    But it still concerns me. It should concern all of us that 
we won't continue to attract the best and the brightest of this 
industry if we can't compensate people. If they can't be 
assured that they're going to have a pension plan.
    I testified in this very building in 1992 about pension 
reform and the obligation that I thought, carriers had. That's 
not my role here today. But I am concerned that if the wages 
aren't supportive of attracting qualified, intelligent people 
to these jobs in the long run, we'll suffer.
    And so that's not anything that the FAA can undertake. But 
I think the commercial airline industry and I would applaud 
Secretary LaHood, who has called a group together to study the 
long term. He brought together folks from the industry, from 
the airlines, from the manufacturers, and from labor unions to 
sit down and discuss the question, what do we want this airline 
industry to produce?
    Do we want it to produce service to small cities, jobs, 
high-paying, good jobs to people whether they be mechanics or 
pilots? And if that's what we want, have we enabled the system 
to do that? And so I applaud Secretary LaHood's action there. 
He's going to empower that within about 2 weeks.
    This group is going to get together. And he's made it very 
clear he doesn't want a series of nice things to do. He wants a 
series of actionable items that we can take.
    Senator Lautenberg. Good. We had an incident in this room 
some time ago when there was a takeover attempt of one airline 
by another. The acquiring airline was willing to pay $17 
billion in cash to buy the other airline. The room was full of 
pilots from the acquiring airline.
    And I asked a question of the CEO of the company, if they 
had $17 billion available for purchase of another airline, why 
were they reducing pensions? The room broke out in applause. I 
wasn't looking for that, but the deal was broken because there 
was a different evidence of a responsibility that the airlines 
had to take.
    And we need their cooperation in determining what kind of 
compensation ought to be there to make sure that the pilot is 
flying as much as we can with a respectable salary that says, 
look, this job is worth it because people love to fly, as you 
know. And they will fly for almost any price. Not just for 
income, but for love of job and rendering a real service.
    And in 2006, the former FAA Administrator stated that 
Newark Liberty air traffic control tower needed at least 35 
controllers to move traffic safely. But right now there are 
only 26 certified controllers and 8 trainees in manning the 
tower. They're supposed to have 35 trained, but they have only 
26 trained, fully trained.
    Now I've been asking this question for the past 5 years, 
and this time I'd like to have it be the last time that we 
discuss this. And I trust you, Mr. Administrator, to make sure 
that if you don't have the resources to do this and you have to 
let us know.
    That when will the Newark Tower be fully staffed with 
certified controllers? When will the LaGuardia be fully 
staffed? When will and I just look at those in the region that 
I--and why also at JFK are these understaffed?
    Maybe there can be technological reasons that say, OK, well 
we can get by with that. But if that's the case you're going to 
have to tell us about it.
    And last, the FAA has taken a major air space redesign in 
the New Jersey/New York/Philadelphia region. The major overall 
of the flight patterns has raised safety concerns from 
controllers and could increase the noise levels over many parts 
of New Jersey. In 2007, the FAA official dismissed the noise 
problem at best as a side issue.
    Well, we can't say in good conscience that the quality of 
life issues affecting hundreds of thousands of New Jerseans 
should be considered in the redesign process. And there is also 
a concern about living in the path, the glide path of an 
airport or take-off. Can we count on you to do that and also 
willingness to hold a town hall meeting in New Jersey to 
discuss any FAA plan to address the safety and noise concern 
regarding air space design projects?
    Mr. Babbitt. Yes, sir. I indicated in the past, I think one 
of the areas that we have not done well in, is when we talk 
about air space redesign. People immediately focus on some new 
dotted lines that didn't used to go over the area in which they 
live. When we talk about air space redesign, we have a couple 
of things to expand on.
    We have a new contract with the National Air Traffic 
Controller Association. We're making a lot of efforts to have a 
much better dialogue and ability to communicate with them and 
the ability to collaborate with them on issues. I want their 
participation in this air space redesign. I welcome their 
participation.
    This is the environment in which they live. They do this 
day-to-day. You can have a lot of academic studies, but having 
the academic and the technical solution paralleled and mated 
with the practitioner gives you a far better product in my 
experience. So we want to do that.
    Second, I think it's incumbent upon us to let people know 
that we're doing more than just changing the dotted lines. With 
this air space redesign and I think I've noted in the past, 
we're not redesigning it just because it's working so well now. 
It's not working well now. And with the new technology that we 
have we're going to be able to utilize a lot of new techniques. 
But we----
    Senator Lautenberg. We look forward to that. And I'm going 
to close this hearing. And once again, convey our condolences 
to those who lost loved ones in the flight to Buffalo.
    We're trying very hard honestly. I address this to the 
people here to make sure that we learn from mistakes, and how 
terrible a mistake that was. How terrible an error in judgment 
that was in terms of having the kind of person in the cockpit 
that you couldn't feel good about or obviously was unable to 
assist in that moment of emergency.
    With that I close this hearing. Thank you again, Mr. 
Babbitt. Thank all of you for being here.
    [Whereupon, at 11:52 a.m. the hearing was adjourned.]
                            A P P E N D I X

 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                         Hon. Randolph Babbitt
    Question. Last year there were several incidents that demonstrated 
that air carriers were not in full compliance with the FAA safety 
standards and airworthiness directives. What steps have been 
implemented to make certain that air carriers' maintenance programs are 
in full compliance with the FAA's safety standards?
    Answer. The agency established an airworthiness directive (AD) 
compliance review team (CRT), consisting of eight FAA and industry 
subject matter experts, to review these events. The AD CRT's September 
2009 report documents 12 findings and recommendations which focused on 
the process of developing and implementing ADs and ensuring compliance.
    As a result of the AD CRT report, the FAA asked manufacturers, air 
carriers, and industry associations to participate in an aviation 
rulemaking committee (ARC) to develop implementation actions responsive 
to the findings and recommendations from the AD CRT.
    The ARC met for the first time in December 2009. Its four 
supporting sub-groups will work through recommendations in the 
following areas: Service Information, AD Implementation, AD Development 
and FAA Procedures. The ARC will submit a final report detailing 
recommendations and implementation actions by June 2011.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                         Hon. Randolph Babbitt
    Question 1. I have concerns about the speed of NextGen 
implementation as a whole. Do you believe the agency is on track to 
deliver on its modernization commitments in both the near-term and by 
2025?
    Answer. NextGen is one of the Department of Transportation's top 
priorities. It represents the single, most significant overhaul of the 
National Airspace System in American history and we are on track to 
deliver on our NextGen commitments.
    In 2009, the FAA made significant progress toward the 
implementation of NextGen by meeting 94 percent of our high-priority 
NextGen goals for the year. For example, in 2009 our new satellite-
based aircraft surveillance tracking system, Automatic Dependant 
Surveillance--Broadcast (ADS-B), was made operational in the Gulf of 
Mexico where surveillance has never before been possible. That comes on 
the heels of making ADS-B operational in Louisville, and many other 
sites will soon follow suit. The 2010 NextGen Implementation Plan, 
which we expect to publish in early 2010, provides a summary overview 
of FAA's planned and ongoing activities.
    The September 2009 RTCA NextGen Mid-Term Implementation Task Force 
report reiterated the need to maximize those benefits that can be 
achieved today with existing aircraft equipage, while continuing to 
build toward the longer-term. In response to the RTCA report, the FAA 
has made significant adjustments to our NextGen plan to address the 
RTCA's recommendations.
    Recognizing that NextGen is a portfolio of investments, there will 
be incremental progress as the FAA implements NextGen solutions and 
capabilities throughout the near and mid-term. New infrastructure and 
associated capabilities will provide a foundation for expanded 
capabilities and benefits that will be introduced over the long term.
    It is expected that a significant portion of the core objectives of 
NextGen (enhanced safety, increased system capacity, improved quality 
of service, and enhanced environmental performance) will be met as 
planned through the implementation of relatively well-understood, 
advanced concepts, technologies, procedures, and policies. We estimate 
that by 2018, NextGen will reduce total flight delays by roughly 21 
percent while providing $22 billion in cumulative benefits to the 
traveling public, operators and the FAA. In addition, 1.4 billion 
gallons of fuel will be saved, cutting carbon dioxide emissions by 
nearly 14 million tons.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Randolph Babbitt
    Question 1. What is the current staffing and vacancy levels at each 
of Alaska's Flight Service stations?
    Answer. The FAA is responsible for the operations and staffing of 
the 17 FSSs in Alaska. These consist of parent facilities in Fairbanks, 
Juneau, Kenai, and Palmer with 13 satellite facilities elsewhere across 
the State. As of December 11, 2009, we have 192 full-time personnel 
supporting these facilities with 3 vacancies.
    Staffing numbers by parent facility are summarized below:

    Fairbanks (includes Barrow and Northway)

        Onboard--46
        Vacancy--1

    Kenai (includes Cold Bay, Dillingham, Homer, Iliamna, and McGrath)

        Onboard--68
        Vacancy--1 (non-FSS specialist)

    Palmer (includes Nome, Kotzebue, Deadhorse and Talkeetna)

        Onboard--26
        Vacancy--0

    Juneau (includes Sitka and Ketchikan)

        Onboard--38
        Vacancy--1

    Regional Office Administration

        Onboard--14
        Vacancy--0

    Question 2. How many of these employees are currently retirement-
eligible or will become retirement-eligible within the next 3 years?
    Answer. Maintaining the necessary numbers and experience levels for 
our Alaskan FSS workforce is a top priority of the FAA. Presently, 
despite only having three vacancies, we have a growing number of 
individuals who are either at or nearing retirement eligibility. As of 
today, 97 of the current 192 employees are eligible to retire. This 
number increases by 9 in calendar year (CY) 2010, 11 in CY 2011 and 10 
in CY 2012. A recent survey of retirement-eligible employees showed 
that 13 of the 97 are likely to retire before June 2010.
    Flight service station personnel are classified as air traffic 
control specialists and, as such, they may not perform air traffic-
related functions beyond age 56. Currently, however, this requirement 
can be waived at the discretion of the Administrator. The FAA FSS 
program office has and will continue to consider this option for those 
FSS specialists who desire to continue their FSS duties beyond age 56.

    Question 3. What is the FAA's plan for training Flight Service 
Specialists to insure Alaska maintains fully staffed and professionally 
trained Flight Service Stations?
    Answer. Training of future FSS specialists has changed since 
Lockheed Martin took responsibility for delivery of FSS products in all 
states but Alaska. Rather than training a limited number of flight 
service specialists at the FAA Academy at the Mike Monroney 
Aeronautical Center in Oklahoma City, Oklahoma, the FAA will be 
providing training for Alaska specialists at our facility in Kenai. We 
are finalizing the updated, localized curriculum for a class that will 
commence in early 2010. Employment bids for both in-state and out-of-
state candidates to populate this and future classes will be released 
within the next several weeks. Once candidates are selected and their 
initial training is complete, they will be assigned to a principal duty 
station where on-the-job and local area knowledge training will occur. 
It is anticipated each applicant will take from 12 to 24 months to 
reach full-performance capability as an FSS specialist.

    Question 4. During your testimony, you mentioned a recent Federal 
ruling allowing for flexibility with employees considering retirement. 
Can you please provide more information on this ruling?
    Answer. The salary of a retired employee who receives a Federal 
annuity, i.e., an annuitant, is generally reduced and/or off-set if the 
annuitant returns to Federal employment. However, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010 changed this rule by 
amending the Civil Service Retirement System (CSRS) and the Federal 
Employee Retirement System (FERS) statutes.
    The amendments to the CSRS and FERS statutes allow the head of the 
Agency to waive the application of the off-set and salary reduction 
rule applicable to reemployed annuitants, under certain circumstances 
(e.g., waivers may be granted when it is necessary to fulfill functions 
critical to the mission or assist in recruitment or retention of 
employees). Certain limitations also exist with respect to appointments 
pursuant to such waivers including limitations on the duration of an 
appointment, the hours of service that may be performed by an annuitant 
appointed under the waiver authority, and the number of annuitants 
granted waivers.
    The Office of Personnel Management (OPM) has issued guidance on 
this legislative change and we are coordinating with DOT on how best to 
attract and benefit retirees willing to return to part-time Federal 
employment during peak demand periods either as FSS specialists or 
instructors at our Kenai facility. We will update you on these items 
and their applications to our Alaska FSS staffing as more information 
becomes available.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Hon. Randolph Babbitt
    Question 1. Under current FAA regulations governing flight and duty 
rules for pilots there are three sections with three sets of rules: one 
for domestic scheduled operators, one for international flag carriers 
and one for non-scheduled operations. Could you explain the reasoning 
behind having three different sets of rules?
    Answer. These rules were originally constructed to apply to the 
unique properties associated with the kind of operation (domestic, 
flag, or international), including the associated business models. 
However, the FAA is currently in the process of amending the existing 
flight and duty regulations, using fatigue science to create a single 
regulatory approach to addressing fatigue in all types of Part 121 
operations. We anticipate issuing a notice of proposed rulemaking by 
April 2010.

    Question 2. Last year I filed an amendment to the FAA 
Reauthorization bill that would allow proven bird strike radar 
technologies to be purchased with Airport Improvement Program funds as 
long as they do not have a negative effect on navigational aids. What 
is the status of the FAA's studies on bird strike radars?
    Answer. The FAA Technical Center in New Jersey, FAA, in conjunction 
with the U.S. Department of Agriculture and the University of Illinois 
Center of Excellence for Airport Technology, is currently testing 
various types of commercially-available bird radar systems. The purpose 
of the study is to determine the effectiveness of the systems as well 
ensuring that bird radar systems can coexist with, and not impact, 
existing airport navigational aids. We will use the results of the 
assessments to develop a performance specification which would make 
avian radar eligible for competitive procurement by airports using AIP 
grants.
    A three-step process must be completed prior to making avian radar 
eligible for AIP grants. First, the technical evaluation must be 
completed. We expect the evaluation to be complete in the next several 
months. Second, the performance specification must be developed. We 
expect the performance specification to be completed before the end of 
Fiscal Year 2010. The third step in the process is development of 
guidance for the use of AIP grant funds. Based on the work effort 
remaining, we expect that the testing, specification and technical 
guidance will be complete in time for the FY2011 grant year.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Randolph Babbitt
    Question 1. Administrator Babbitt, in your 6 months at the helm of 
the FAA, how have you made it clear to the airline industry that there 
is truly only one level of safety for all air carriers?
    Answer. All Part 121 air carriers, regional and mainline, are held 
to the same regulatory standards and are inspected by the Federal 
Aviation Administration under the same protocol as prescribed by the 
Air Transportation Oversight System (ATOS).
    In addition to the regulations, the FAA has developed voluntary 
programs that enhance safe operations. Examples of these programs 
include the Advanced Qualification Program (AQP), Aviation Safety 
Action Program (ASAP), Flight Operations Quality Assurance (FOQA), Line 
Operations Safety Audit (LOSA), and Voluntary Disclosure Reporting 
Program (VDRP). These programs can require additional investment by air 
carriers. Mainline carriers may be better situated, financially, to 
make these investments than regional carriers.
    Nevertheless, in my letter of June 24, 2009, I clearly communicated 
my expectation to air carrier CEOs that all Part 121 air carriers 
should implement FOQA and ASAP programs. I have received responses from 
82 percent of Part 121 air carriers. These responses show that 98 
percent of airplanes operating under Part 121 are flown by operators 
which have, or intend to implement ASAP programs. In addition, 94 
percent of aircraft operating under Part 121 are flown by operators 
which have or intend to implement, both ASAP and FOQA.

    Question 2. Administrator Babbitt, earlier this year I introduced 
legislation to improve the safety of air medical services (S. 1199). 
The content of my bill was included in the FAA reauthorization 
legislation reported by the Commerce Committee. My understanding is 
that the FAA is looking at issuing a notice of proposed rulemaking on 
helicopter EMS operations to address a number of the National 
Transportation Safety Board's ``most wanted'' safety improvements, 
among other things, and has initiated a formal `rulemaking project'. 
What is the status rulemaking process?
    Answer. We have moved expeditiously to complete a notice of 
proposed rulemaking (NPRM) addressing many of the NTSB recommendations 
related to helicopter air ambulance operations, as well as many of the 
voluntary initiatives put in place over the last 3 year period. This 
NPRM is in the final stage of agency clearance and on schedule to be 
published in the spring, after DOT and OMB clearance are complete.

    Question 3. Administrator Babbitt, as you know, regional airlines 
have different business models. At carriers such as Horizon, which is 
part of the Alaska Air Group, headquartered in my state of Washington, 
pilots can- and do have fulfilling careers flying for a regional 
airline. One way of looking at the continuing education and training 
Horizon provides for its pilots is that it is making a long-term 
investment in its most critical asset.
    Some regional airlines, though, which focus exclusively on being 
the low-cost feeder to a mainline carrier, may view pilots as a short-
term operational expense and therefore look to hire minimally qualified 
pilots, pay them as little as possible, and not invest in anything much 
more than on-the-job training.
    I understand you want us to not focus exclusively on a specific 
number of flight hours a pilot and copilot have, but on the range of 
situations a pilot and co-pilot are trained to address. If it does end 
up that the FAA moves forward with the approach that you are advocating 
for in your testimony today, how will ensure compliance at all 
airlines, including all regional carriers?
    Answer. As you have stated, not all pilots for regional airlines 
regard their employment as merely an opportunity to gain experience and 
move to a major airline. Many pilots make decisions based on the 
lifestyle a regional airline can provide, such as seniority, types of 
airplanes or location of domiciles.
    Whether employed by a regional or a major airline, all pilots are 
trained and qualified in accordance with Part 121. FAA conducts the 
same oversight (e.g., through inspection and observation) of Part 121 
operators, whether a regional or a major airline.
    Focusing exclusively on a specific number of flight hours a pilot 
and copilot have is one option to address the issue of better 
operational experience for pilots who carry commercial passengers. My 
concern is that this option focuses on quantity rather than quality and 
scope of training and experience. The kind of experience needed cannot 
be measured only in hours of flight time. For these reasons, the FAA is 
considering a number of possibilities. One idea is to address this 
issue through an endorsement, such as the endorsement required to serve 
as pilot-in-command in a pressurized aircraft. For instance, a 
commercial pilot who wishes to work for a Part 121 air carrier, might 
first be required to obtain an endorsement showing successful 
completion of ground training and flight operational experience in 
specifically defined areas (e.g., icing, high altitude). These concepts 
will be explored in the advance notice of proposed rulemaking we intend 
to issue within the next 45 days on pilot certification requirements 
for Part 121 operations.

    Question 4. Administrator Babbitt, as you know, the FAA is in the 
process of replacing the HOST Computer system--technological backbone 
for En Route Air Traffic Control--with ERAM. As I understand it, 
however, this change-over has not been as smooth as the FAA or its 
contractor had hoped. The air traffic controllers have had to learn to 
do a number of more labor intensive work-arounds, which is an 
inconvenience during the midnight to four am shift when there is little 
traffic, but of much greater concern when air traffic controllers are 
handling numerous flight operations during the busier times of the day. 
As you know Seattle is next in line for ERAM after Salt Lake City. What 
is ERAM's current status and implementation schedule?
    Answer. ERAM is currently undergoing operational use and evaluation 
at its key sites in accordance with the FAA's acquisition management 
system. A key milestone in the process is the In-Service Decision (ISD) 
which will determine our ability to proceed with ERAM to the other 18 
sites.
    The key sites for the ERAM program are Salt Lake Air Route Traffic 
Control Center (ARTCC) and Seattle ARTCC. We intend to start continuous 
(24 x 7) operational use at the Salt Lake City (ARTCC) in February.
    The role of a ``key site'' is to use the new system in an actual 
operational environment and find software ``bugs'' that were not 
identified at the prime contractor's facility and at our Technical 
Center, despite very extensive testing there.
    The problems that were identified at Salt Lake are being resolved 
through software fixes that were recently delivered to the site. 
Currently, we expect to commence continuous operations at Salt Lake 
ARTCC by early February. We are proceeding down a similar path with our 
second key site, the Seattle ARTCC where they have identified all of 
their remaining known software problems that must be fixed. The 
software changes are still in the process of being made, and we expect 
delivery to occur in the latter part of February. Independent 
Operational Test & Evaluation is expected to start in February as well.
    We are pleased to announce that we have reached a memorandum of 
understanding with the National Air Traffic Controllers Association on 
ERAM implementation. They have identified a national technical 
representative, and we have engaged the Air Traffic Controllers from 
Salt Lake City (ZLC) in the testing of the new software build at the 
Atlantic City Technical Center.

    Question 4a. My understanding is that there is a backup system for 
HOST. Is there a back-up system for ERAM? If it is the same system that 
currently backs-up HOST, have there been any difficulties in switching 
between that system and ERAM?
    Answer. The backup system to HOST is called EBUS. It is a separate 
system that provides less than full capability as a backup (for 
example, limited data blocks). The backup to ERAM is ERAM itself, in 
that it is an internally redundant system, i.e., it has two completely 
redundant channels (and processors, etc.), both with the same full 
capabilities. HOST is a single channel system; if it goes down, the 
overall automation system transitions to EBUS for limited capability. 
With ERAM's two channels, if one of them goes down, the overall 
automation system transitions to the other channel. Again, both 
channels have the same full capabilities. The ERAM ``backup'' is 
therefore more robust than the HOST backup. EBUS will continue to be 
used as part of the system transition from HOST to ERAM, but as HOST is 
retired from each facility, EBUS will also be retired from our 
inventory.
    The difficulties encountered in transitioning from EBUS to ERAM 
have been addressed in the latest software which will be used to start 
continuous 24 x 7 operations by early February at Salt Lake.

    Question 5. Administrator Babbitt, based on your experience in 
industry, is there any advantage to using notice to airmen (NOTAM) 
compared to going through a formal rulemaking process when it comes to 
aviation safety issues? Philosophically, do you see there being 
benefits to having airlines voluntarily abide by safety directives or 
do statutes and rules provide a more effective means of ensuring 
compliance?
    Answer. (a) The FAA uses NOTAMs to disseminate time-critical 
aeronautical information that is of either a temporary nature or not 
sufficiently known in advance to permit publication on aeronautical 
charts or in other operational publications. NOTAM information includes 
information on airports, taxiways, ramps, obstructions, communications, 
airspace, changes in the status of navigational aids, radar service 
availability, and other information essential to planned en route, 
terminal, or landing operations.
    (b) Although regulations are essential in some cases, history has 
shown that we can often implement safety improvements more quickly and 
effectively on a voluntary basis. To do so, we use tools such as the 
Safety Alert for Operators (SAFO) and the Information for Operators 
(InFO).
    A SAFO is an information tool that alerts, educates, and makes 
recommendations to the aviation community. SAFOs frequently contain 
information that is time critical. The FAA expects operators to 
consider immediate implementation of any applicable action recommended 
in a SAFO.
    An InFO contains information to help operators meet certain 
administrative, regulatory, or operational requirements with relatively 
low urgency or impact on safety. InFOs contain information or a 
combination of information and recommended action to be taken by the 
respective operators identified in each individual InFO.

    Question 6. Administrator Babbitt, I am a strong advocate for the 
accelerated adoption of RNAV/RNP technologies. In addition to the fuel 
savings, the use of RNAV/RNP, when combined with a continuous decent 
approach, will reduce in the aggregate, the total amount of noise 
experienced by all those living in areas surrounding the airport. The 
new more efficient approach, though, may increase the noise experienced 
by a narrow segment of population--places that may have never been 
subject to airline noise before. If a new more efficient approach is 
designed that flies over an area that is not part of an airport's 
existing environmental impact study area, does a new environmental 
impact study need to be conducted? If that is the case, could that slow 
significantly the adoption of RNAV/RNP?
    Answer. The FAA's policy with regard to establishment or proposed 
change in procedures includes the requirement to conduct a noise 
screening analysis, including arrival aircraft below 7,000 feet above 
ground level (AGL), departure aircraft below 10,000 feet AGL, or when a 
national park or other similar land (on a case-by-case basis) is in the 
area, below 18,000 feet mean sea level. This noise screening analysis 
will determine the level of environmental review necessary. The degree 
of change in the current noise footprint associated with the proposed 
change in procedure(s) will determine the level of environmental review 
required, regardless of whether the area is or is not part of an 
airport's existing environmental impact study area. There are four 
basic criteria that determine the level of environmental review 
required for a proposed change. They are: (1) a change in the day-night 
sound level (DNL) of 1.5 decibels (dB) or greater within the 65 dB 
contour; (2) a change of 3 dB or more in the 60 to 65 dB contour; or 
(3) a change of 5 dB in the 45 to 60 dB contour; and 4) the type of 
land-use in the area of change.
    The result of the noise screening analysis will determine the level 
of environmental review required; either a Categorical Exclusion 
(CATEX), a Documented CATEX, an Environmental Assessment (EA) with a 
Finding of No Significant Impact (FONSI), or an Environmental Impact 
Statement (EIS) with a Record of Decision (ROD). The CATEX or 
Documented CATEX does not have the potential to delay implementation of 
an RNAV/RNP procedure. An EA/FONSI can take approximately 12 to 18 
months to complete and depending on the start date, could potentially 
delay implementation by a few months. An EIS/ROD process takes anywhere 
from 24 months or more to complete and would have the greatest impact 
on an implementation schedule.
    Procedures requiring additional environmental studies can 
significantly extend the production timeline depending on the level of 
the environmental study. With a solid foundation of routes and 
procedures in place, we are exploring ways to accelerate performance-
based navigation (PBN) and the Next Generation Air Transportation 
System (NextGen) using techniques such as continuous descent arrival 
and optimized profile descent (OPD). We are migrating away from a site-
by-site (or runway-by-runway) procedure implementation process toward a 
NextGen readiness concept that would include development of an 
integrated system of PBN routes and procedures by geographic area 
(incorporating metropolitan areas and outlying airports). The key 
difference is that this approach combines airspace, environmental, and 
procedure development. Where possible, we are implementing OPDs with 
area navigation (RNAV) to make them environmentally friendly or 
``green,'' however, any new procedure still requires noise screening.

    Question 7. Administrator Babbitt, my understanding is that the 
contractor operating the FAA's Automated Flight Service Stations 
(AFSS), which does not include Alaska, continues to shut down stations 
across the country and consolidate these functions into its three hubs. 
Several AFSSs are being shut down on February 1, 2010, including the 
one in Seattle. With the Winter Olympics starting in Vancouver, British 
Columbia later that month, and with the expected increase in the number 
of private planes, I am surprised that the contractor would chose to 
close down the facility at that time. But apparently, the contractor 
has that discretion under the contract. As the contractor continues to 
shut down AFSSs nationally, are there a sufficient number of 
individuals trained at its three hubs with sufficient regional 
knowledge to provide the necessary flight information to pilots around 
the country?
    Answer. Yes. The seven continuing sites planned for consolidation 
are part-time and provide only preflight (pilot weather briefing) 
services. The exception to this is the Miami facility which provides 
full services. The three hub locations in Ashburn, Virginia, Fort 
Worth, Texas, and Prescott, Arizona, currently provide comprehensive 
flight services using local area knowledge-trained specialists. When 
the part-time facilities are closed at night under the current 
operational scenario, coverage for those facilities is transferred to 
one of the three hub locations. This has been the case for over a year.
    Only when pilots call for preflight briefings would they be talking 
with one of the consolidated sites. All calls from airborne aircraft 
are already talking to a specialist located in one of the three hubs. 
Even preflight calls are routed through the Lockheed Martin Flight 
Services (LMFS) telephone distribution switch which attempts to assign 
the caller to a briefer having the local area knowledge. Where the 
briefer is physically located has no bearing on where the call is 
directed.

    Question 7a. Is this a potential safety issue?
    Answer. No. Over the course of the program history and as 
facilities have been closed, the local area knowledge was maintained by 
moving employees to the hubs, thereby retaining the correct flight plan 
area knowledge and expertise. Performance under this model has been 
demonstrated successfully and validated through responses to customer 
satisfaction surveys. However, through our continued oversight of the 
LMFS performance, if it is determined that local area knowledge is 
insufficient; steps will be taken to rectify the situation immediately.

    Question 7b. How does the contractor test /certify that these 
individuals at its hubs who are providing flight services have the 
necessary local knowledge for different regions across the country?
    Answer. In accordance with Federal Aviation Administration and 
National Weather Service (NWS) requirements, LMFS trains flight service 
specialists in local flight plan area knowledge. Each specialist must 
pass an annual evaluation that measures his or her knowledge and skills 
specific to the areas for which he or she is certified. In addition to 
the local flight plan area training and evaluation, all flight service 
specialists must pass the NWS weather briefing certification process.

    Question 7c. Is there an acceptable performance level in the 
contract related to this?
    Answer. Yes--there is a performance metric (PM) specifically 
associated with local area knowledge, called ``Employee Evaluation 
Index Score.'' As mentioned above, this PM involves an annual exam that 
each specialist must pass for each area for which he or she is 
certified. Also, it is a requirement for all flight service specialists 
to hold an NWS certification as a condition of employment. All flight 
service specialists who have passed the NWS certification process are 
authorized to brief within the United States. Specialists receive 
mandatory training from LMFS for the specific flight plan area(s) 
before they are authorized to brief that area. The FAA verifies the 
training documentation and the NWS certification for each specialist as 
part of its regular quality assurance/quality control assessments.
    During prior consolidations, LMFS employees possessing local area 
knowledge have transferred to the hubs, thus allowing these individuals 
to log on to the LMFS system and brief calls from any portion of the 
continental United States, regardless of their physical location. For 
example, an individual from the Seattle Automated Flight Service 
Station (AFSS) who transferred to one of the three hubs could be 
assigned a call from the Seattle flight plan area if requested by a 
caller. That specialist could be physically located in any of the three 
AFSS hubs.

    Question 7d. If not, should it be included in option one (which the 
FAA has to inform the contractor that it wants to exercise by August 4, 
2010)?
    Answer. As noted, a PM exists to measure local area knowledge. The 
FAA continually assesses and evaluates not only the actual performance 
metrics and their associated acceptable performance levels (APL) but 
also the specific nature of each metric for value-added benefits and 
applicability. Over the course of the contract, various modifications 
to the PMs/APLs have taken place. If the FAA determines deficiencies 
exist or gaps in the performance standards manifest themselves, the FAA 
will address these shortfalls in performance through various means 
including, but not limited to, additions/modifications of the PMs/APLs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. Randolph Babbitt
    Question 1. Since 1998 there have been 148 medical helicopter 
accidents with 137 fatalities. The NTSB recently found that medical 
helicopters comprised 43 percent of all fatal accidents in 2008. When 
the NTSB held its hearings in February and recently issued its 
recommendations to the FAA, CMS and others, NTSB addressed not only the 
avionics, but also the economics of the air medical industry. As I'm 
sure you're aware, I've sponsored S. 848 which addresses air medical 
medicine, including some economic issues. I fully support FAA's efforts 
to address the avionics issues. In light of the NTSB recommendations, 
to what extent do you believe that the economic issues should also be 
addressed to stop these deadly crashes?
    Answer. The Department of Transportation's Office of the Secretary 
administers aviation economic regulatory issues. The Department 
supports a study in this area. Following introduction of S. 848 and its 
companion bill in the House, H.R. 978, DOT received and granted meeting 
requests from both supporters and opponents of the proposed 
legislation. The Department received diametrically opposed statements 
concerning the state of the industry and whether a problem exists in 
this area. A study conducted by a neutral party would result in an 
objective report on whether a systemic problem exists, and if so, the 
nature of any problem identified. DOT suggests that at a minimum, the 
report include facts, analysis, and recommendations in the following 
areas: (a) the ``state of the industry,'' including information on the 
number, size, and location of air ambulance operators and their 
relationships with State and local Governments, hospitals, and other 
entities; (b) coordination of air ambulance operators with State or 
local Emergency Medical Services (EMS) systems; (c) the nature of air 
ambulance operators' service contracts, sources of payment, and costs 
of operation; (d) dispatch protocols, and compliance in practice; (e) 
current State regulations of air ambulances; (f) whether systemic 
problems exist under the current system governing air ambulances, and 
if so, the nature of the problems; and (g) the potential impact of 
additional State regulation of air ambulances. Both the House passed 
and Senate reported versions of legislation to reauthorize the FAA 
currently contain proposals to conduct a study of the industry 
consistent with these recommendations.

    Question 2. Several of the provisions of S. 848 as well as an 
amendment that I proposed to the FAA Reauthorization bill would clarify 
the areas of air ambulance operations that are medical safety and 
service related and thus would clarify that these areas can be 
regulated by the states. These include medical qualifications and 
training of helicopter personnel, quality of care, proper equipment and 
temperature controls, access for transportation of patients, and proper 
medical equipment aboard a helicopter. In addition, my amendment would 
require the coordination of flight requests and proper communications 
between the helicopter and the public safety personnel.
    Many states already regulate these areas, including Missouri. In 
fact, Missouri regulates far more medical and safety areas than my 
amendment does. Missouri law states that air ambulance services must 
meet the following requirements:

  <bullet> Documentation that each aircraft has life support equipment 
        and supplies.

  <bullet> Equipment that allows for reliable communication.

  <bullet> Effective maintenance, storage, usage and replacement of 
        medical equipment and devices.

  <bullet> Sufficient personnel to meet the mission of a flight.

  <bullet> Proper training to carry out life support procedures.

  <bullet> Proper records, policies and procedures, including a record 
        of each transport and casualty protocols, and medical control 
        policies.

  <bullet> Proper training of air medical personnel.

  <bullet> Designated medical director for each air ambulance service.

  <bullet> Proper communications centers and operations, including 
        systems to assure response to emergency requests and estimated 
        time of arrival.

  <bullet> Quality improvement program that monitors and reviews the 
        quality of patient care.

  <bullet> Maintenance of policies and procedures, including safety 
        programs, standards of care, ambulance operations and 
        communications.

    Certainty for the state as to what they can regulate and what they 
cannot in air ambulance operations--based on that which is aviation 
safety related and preempted and that which is medically related and 
not preempted--would be an important advance in this field. Given that 
MO and other states are already regulating these areas, why should we 
not clarify that these areas are appropriate and lawful for the states 
to regulate? Can you confirm that the FAA believes the Missouri 
regulations are lawful and appropriate, as I believe they are?
    Answer. I fully recognize the interest States have in ensuring 
their residents receive prompt medical treatment from properly 
qualified professionals. I also know that an underlying statutory and 
regulatory framework is necessary to ensure the provision of such 
services. Nevertheless, it is the details of that framework--the 
specific language used in statute or regulation and the manner in which 
it is actually applied--that determine its appropriateness in any 
particular instance. In all instances, however, state medical 
regulations that would affect air ambulances must be compliant with FAA 
safety requirements.
    State regulations must also avoid conflict with the Airline 
Deregulation Act of 1978. The Department's long experience with 
regulation of air ambulances has shown that State regulations fall 
along a continuum ranging from exclusively medical matters on one end, 
to economic qualifications on the other. The former are more likely to 
be wholly appropriate; for example, those addressing the credentials 
and training of medical personnel. The latter much less so, as in the 
case of ``certificate of need'' requirements.
    DOT/FAA recognizes the need for guidance, however, and for that 
reason we have responded to state officials seeking opinions on whether 
a state regulation or proposed action conflicts with the FAA's safety 
oversight or the Airline Deregulation Act. Such requests include 
discussions of the specific regulation and the details of its 
implementation and application in a particular scenario. With these 
specifics, the experienced professionals in the FAA's office of the 
Chief Counsel and the DOT's office of the General Counsel are prepared 
to provide assistance.

    Question 3. I consulted with the FAA before introducing my 
legislation, S. 848, to address the areas of concern that the agency 
had in the legislation over the aviation safety regulation of air 
ambulances. Are there any recurring issues with S. 848 that the FAA has 
with regard to aviation security? If so, what are they?
    Answer. Aviation security related issues must be addressed by the 
Transportation Security Administration, as TSA is the agency charged 
with responsibility for aviation security oversight.

                                  <all>

</pre></body></html>
